<html>
<title> - DEPARTMENT OF JUSTICE OVERSIGHT</title>
<body><pre>[Senate Hearing 106-496]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-496

 
                    DEPARTMENT OF JUSTICE OVERSIGHT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                ACTIVITIES OF THE DEPARTMENT OF JUSTICE

                               __________

                              MAY 5, 1999

                               __________

                          Serial No. J-106-23

                               __________

         Printed for the use of the Committee on the Judiciary


                              <SNOWFLAKE>



                    U.S. GOVERMENT PRINTING OFFICE

64-325 CC                   WASHINGTON : 2000





                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                  (ii)




                            C O N T E N T S
                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., U.S. Senator from the State of Utah........     1
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     4
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts..................................................    23

                                WITNESS

Statement of Hon. Janet Reno, Attorney General, U.S. Department 
  of Justice, Washington, DC.....................................    12

               ALPHABETICAL LIST AND MATERIALS SUBMITTED

Reno, Hon. Janet:
    Testimony....................................................    12
    Prepared statement...........................................    52

                                APPENDIX
                         Questions and Answers

Responses of Janet Reno to questions from Senators:
    Hatch........................................................    63
    Thurmond.....................................................    76
    DeWine.......................................................    86
    Ashcroft.....................................................    91
    Leahy........................................................    94
    Kennedy......................................................   112
Additional responses of Janet Reno to questions from Senators:
    Hatch........................................................   153
    Dewine.......................................................   155
    Leahy........................................................   155




                    DEPARTMENT OF JUSTICE OVERSIGHT

                              ----------                              


                         WEDNESDAY, MAY 5, 1999

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Thurmond, Grassley, Specter, Kyl, 
Sessions, Leahy, Kennedy, Biden, Feinstein, Feingold, and 
Torricelli.

OPENING STATEMENT OF HON. ORRIN G. HATCH, U.S. SENATOR FROM THE 
                         STATE OF UTAH

    The Chairman. It is a pleasure for me to welcome our 
distinguished Attorney General. We are glad to have you here at 
today's oversight hearing.
    I hardly need to point out that the bulk of the Attorney 
General's duties are crucial law enforcement ones and that the 
credit owing to the Attorney General and the Justice Department 
often goes unexpressed. Let me assure you, Attorney General 
Reno, that while I will focus this morning on problems with the 
Department's actions, this committee acknowledges and 
appreciates the successes the Department has enjoyed during 
your tenure--whether enforcing antitrust and business 
competition laws, or investigating and enforcing our civil 
rights, drug, and terrorism laws.
    Yet there are serious issues, some of which have come to 
light only recently. I am referring to questions of security 
breaches of our country's nuclear technology that have occurred 
at Los Alamos and questions about youth violence in our 
country.
    To begin with Los Alamos, some have described the recent 
security breaches by Wen Ho Lee as the worst threat to U.S. 
security since the Rosenbergs. I will not accept that 
assessment unless confirmed by facts developed in the pending 
investigations of this matter. But while all the facts are not 
yet in, what we do know is staggering. Mr. Lee, who was 
belatedly fired only 2 months ago, was implicated in some three 
separate espionage inquiries:
    First, with passing secrets to China about the United 
States neutron bomb technology in the early 1980's;
    Second, with passing information to China in 1988 that 
enabled it to copy one of our most advanced nuclear warhead 
technologies and assist the Chinese Government in placing 
multiple warheads into a single intercontinental ballistic 
missile, commonly known as W-88 technology;
    And, third, and most devastating, the downloading in 1994 
by Mr. Lee of 50 years' worth of so-called ``legacy codes,'' 
which contain our country's nuclear codes, onto a nonsecure 
computer system that may have been accessed by third parties.
    Based on information already in the public domain, it 
appears to me that had the Department acted promptly and 
properly 2 years ago, when urged by the FBI to petition the 
court for wiretap authority over Wen Ho Lee's phone and 
computer, that much of this apparent damage to our national 
security may have been avoided.
    Let me be specific, as I hope you will be with your 
answers. As reported in the New York Times, the FBI in 1996 
suspected Mr. Lee of involvement in espionage and in 1997 
requested permission from the Department to seek a court 
warrant to monitor Mr. Lee's phone and gain access to his 
computer. The Times reported that such permission was initially 
denied by the acting director of the Department's Office of 
Intelligence Policy Review and then denied on appeal by the 
Department's Deputy Attorney General, Eric Holder.
    The explanation subsequently proffered for this denial was 
that the evidence did not meet the ``probable cause'' threshold 
necessary for a wiretap to be issued. But consider that at the 
time the Department turned down the FBI, the following evidence 
was apparently known about Wen Ho Lee:
    As far back as 1982, Mr. Lee was investigated by the FBI as 
the result of a phone call he placed to another Taiwanese-born 
scientist--Peter Lee, no relation--who had just been dismissed 
from the Lawrence Livermore National Laboratory following an 
investigation of China's theft of neutron bomb secrets.
    Then in 1994 or 1995, Wen Ho Lee was observed being hugged 
by a visiting Chinese scientist in a manner that was perceived 
to be ``suspiciously congratulatory.''
    Later, because of Mr. Lee's travel to China in 1988 and the 
subsequent discovery of documents by the FBI from 1988 that 
contained W-88 secrets, Mr. Lee emerged in early 1996 as the 
FBI's prime suspect in the W-88 investigation.
    And now I return to sometime in 1997, when the FBI urged 
the leadership of the Department to allow wiretap authority of 
Wen Ho Lee. One journalistic report has it that the Department 
makes some 700 such wiretap applications to courts each year 
under the Foreign Intelligence Surveillance Act and that the 
Department only refuses the FBI once or twice a year. That is a 
matter of great concern.
    To move to another subject, in last year's oversight 
hearing you pledged to help Congress pass juvenile justice 
legislation. The recent tragedy in Littleton, CO, underscores 
the need to confront the culture of crime and violence 
infecting many of our Nation's youth. Yesterday I testified 
before the Commerce Committee hearing that examined the 
marketing of violence to children. At that hearing, I noted 
that there is a sense among many Americans that we are 
powerless to change our culture and that this feeling of 
powerlessness has restrained our ambition for solutions. I 
believe, however, that we can change our culture. The time has 
come for us as a Nation to demand more accountability from 
everyone, including the entertainment industry.
    S. 254, the Hatch-Sessions Violent and Repeat Juvenile 
Offender Accountability and Rehabilitation Act, is the product 
of more than 2 years of work in the Senate Judiciary Committee. 
This legislation contains a $450 million juvenile 
accountability incentive block grant; a ``juvenile Brady'' 
provision, which prohibits the possession of a firearm by 
persons who commit a felony as a juvenile; and $435 million for 
prevention programs. My home State of Utah is particularly 
interested in the authorization of the juvenile accountability 
incentive block grant. The Senate is set to consider S. 254 
next week, and I would really call upon you and ask for your 
help in enacting that bill.
    In the aftermath of the Littleton tragedy, the President 
called for additional gun control legislation. Given the 
magnitude of this and other school shootings, no potential 
solution should go unexamined. Having said this, I must note 
that the Federal gun laws are not worth much unless the Justice 
Department enforces them. After all, State and local law 
enforcement officials cannot prosecute Federal law.
    To date, the Clinton administration's record on firearm 
prosecutions is disappointing. For example, the Judiciary 
Committee's Youth Violence and Criminal Justice Oversight 
Subcommittees examined Federal firearms protections in a joint 
hearing on March 22. The subcommittees' findings were very 
troubling. For example, as the first chart to my right shows, 
between 1992 and 1997, Triggerlock gun prosecutions dropped 
nearly 50 percent, from 7,048 to 3,765. And as you know, these 
are prosecutions of defendants who use a firearm in the 
commission of a felony.
    It is also a Federal crime to possess a firearm on school 
grounds. The second chart that we will put up right now, 
illustrates that, despite the more than 6,000 students 
illegally bringing guns to school last year--6,000 kids 
illegally brought guns to school last year--the Justice 
Department only prosecuted eight cases under this law in 1998 
and only five such cases in 1997.
    It is a Federal crime to transfer a firearm to a juvenile. 
Yet, as the chart shows, the Clinton Justice Department 
prosecuted--I think we need the next chart. The next chart, the 
Clinton Justice Department prosecuted only six cases under this 
law in 1998 and only five in 1997.
    Finally, while it is a Federal crime to transfer or possess 
a semiautomatic assault weapon, as the chart reflects, the 
Clinton Justice Department prosecuted only four cases under 
this law in 1998 and only four in 1997.
    In short, one should weigh the sincerity of administration 
officials advocating these newest gun control proposals. There 
is arguably no better indicator of that sincerity than the 
administration's record on gun crimes. So I urge the Justice 
Department to prosecute our current gun laws to the fullest 
extent. When the Justice Department does not fully prosecute 
current laws, it undermines requests for additional gun control 
legislation.
    I look forward to this oversight hearing, and I trust that 
your responses to our questions will be sufficiently specific 
to assist this committee in better understanding a record that 
at this time gives me a great deal of concern about our 
country's security and the safety of our own citizens.
    We are happy to have you here, and personally, I always 
look forward to listening to your testimony and hearing from 
you.
    With that, we will turn to our ranking member, and then we 
will turn to you.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Attorney General Reno, I am delighted to see 
you here. I have been listening with great interest to the 
chairman's comments. I am impressed at the amount of 
information----
    The Chairman. I wonder if some of us should go vote, so we 
can come back and not interrupt. I will go vote, and I will 
read my distinguished colleague's statement later.
    Senator Leahy. I just want to say how impressed I was, Mr. 
Chairman, at the information you were able to obtain about the 
wiretap applications. I always assumed that was confidential 
and not obtainable.
    The Chairman. We have our ways.
    Senator Leahy. It shows that you do, and especially for 
wiretaps that were never applied for or granted, so I would 
understand if the AG is a little bit reticent to talk about 
something like that which is so confidential.
    The Chairman. It is in the public record. It is reported.
    Senator Leahy. I would assume that if we are going to go 
into the events at Los Alamos thing, insofar as these events 
apparently occurred during the Reagan and the Bush 
administrations, as well as this one, I would assume that we 
may want to go into a classified hearing so we can find out who 
did respond and who didn't respond during three different 
administrations. I know the chairman would not want to be 
partisan, and he would want to make sure that we checked into 
what happened in these other administrations, too.
    Madam Attorney General, we are all, again, grieving for the 
victims of school violence. I commended the President for 
having convened the October 1998 White House Conference on 
School Safety, and we are working with you to provide 
additional community police and school resource officers across 
the country. I met earlier this morning with the Secretary of 
Education. I know that he and the Surgeon General are also 
working on additional initiatives.
    A number of us have sponsored legislation in this area. 
Much of the legislation was never even considered by the 
Judiciary Committee, although we were able to incorporate 
portions in measures that have been enacted. We reintroduced, 
again, on the first day of this session S. 9, the Safe Schools, 
Safe Streets, and Secure Borders Act of 1999, building on the 
1994 crime law. It is comprehensive. It is realistic. It is 
funded by extending the Violent Crime Reduction Trust Fund for 
2 more years. We tried to avoid the easy rhetoric and focus on 
the reality of what we face.
    It targets violent crime in our schools. It reforms the 
juvenile justice system. It combats gang violence, cracks down 
on the sale and use of illegal drugs. It enhances the rights of 
crime victims. It offers meaningful assistance to law 
enforcement officers in the battle against street crime, 
international crime, and terrorism. That bill, which was 
cosponsored by Senators Kennedy, Biden, Torricelli, Schumer, 
and others, is an important step, I believe.
    Unfortunately, however, this committee has spent more time 
these last several weeks--in fact, this past year--on symbolic 
issues like the proposed flag amendment to the Constitution. We 
spent a lot more time on that than school violence. In fact, 
the committee held four hearings on that proposed 
constitutional amendment in the last year, none on the tragic 
school violence incidents that occurred throughout the country, 
including those before the shootings in Colorado.
    I have said before that I have a feeling that if we were to 
ask the parents of Colorado if they were wishing that we would 
spend more time on school violence or more time on the 
possibility that somebody somewhere might burn a flag, they 
probably would say it is time for us to turn our attention to 
school violence.
    In fact, I was disappointed when the committee decided to 
postpone last week's long-scheduled hate crimes hearing. And I 
am disappointed that this week the Subcommittee on Youth 
Violence canceled its hearing on reducing juvenile violence 
through recognition of early-warning signs.
    These are hearings that go into reality, not rhetoric. So I 
hope that the chairman's expressed interest this morning that 
we might go to juvenile violence means that we finally will, 
because we could talk about such things as the booklet 
developed out of the White House Conference on School Violent 
that is now being used by schools throughout the country.
    Senator Lott, the Republican majority leader, indicated 
last week that he will finally allow the Senate to turn its 
attention to these matters next week with a full and open 
debate on proposals to combat school violence. I look forward 
to that debate, and I know we will need your help on that. We 
know that the Federal Government and Federal law alone cannot 
solve the problem of school violence. But there are things that 
we can do.
    We have to recognize the traditional prerogative of the 
States to handle the bulk of juvenile crime. We have to 
redouble our efforts to find ways to help parents and State and 
local authorities on matters of school safety.
    After 3 years in which we have missed opportunity after 
opportunity to cooperate in a bipartisan way on these matters, 
it is long past time to put partisanship aside and work 
together to make progress on prevention and enforcement crime 
matters that affect us all. Unlike many crime issues that have 
come before this committee in recent decades, maybe youth crime 
can be addressed on a bipartisan basis if we want to and if we 
stop squandering the opportunities.
    Under your leadership, Madam Attorney General, and the 
programs established by the Violent Crime Control and Law 
Enforcement Act of 1994, the Nation's serious crime rate has 
declined for 6 straight years. I think it is probably an 
oversight that that chart wasn't put up here. But no 
administration during the 25 years I have been here, Democrat 
or Republican, has been able to say before that the Nation's 
serious crime rate has declined for 6 straight years. It has 
with this administration. We are seeing the lowest reported 
rate in many years. Murder rates have fallen to their lowest 
levels in 3 decades. Juvenile crime rates have also been 
falling. Federal, State, and local law enforcement officers 
have been doing a good job in this, and the aid they have been 
given by the Federal Government has certainly helped.
    A matter on which we worked closely to assist State and 
local law enforcement officers is the Bulletproof Vest 
Partnership Act, which began to be implemented by your 
Department. That help is being made available online with a 
minimum of bureaucratic hassles. And I commend you, Attorney 
General Reno, for your leadership in those areas.
    I commend you for helping to stem the tide of domestic 
violence and for moving aggressively to help the victims of 
this abuse and to improve rights and services for crime victims 
in general. I hope that you and others in the Department will 
work with us on the crime victims initiatives we introduced 
last week in S. 934. I know that there are some problems in the 
restrictive interpretation of the final language, but we can 
work on that.
    I appreciate the continuing cooperation of you and your 
staff and the staff of the Immigration and Naturalization 
Service and the Office of Special Investigations in evaluating 
the sufficiency of current resources.
    Last, I would say that the Department deserves credit for 
the good work being done by Bill Lann Lee as acting head of the 
Civil Rights Division. He has done a fine job. He should not be 
relegated to second-class status any longer. The President has 
now had to renominate him for a third time. It is time for the 
Senate to have the guts to stand up and vote either for him or 
against him, but not hold him in limbo. Let's bring that 
nomination to the floor of the Senate. Let every U.S. Senator 
stand up and either vote yea or nay. I think fairness demands 
nothing less. Honesty demands nothing less. And I think it 
would be wrong for the Senate to hide this from a vote any 
longer. But that is my feeling. Of course, it is the feeling 
of, frankly, every right-minded person in this country.
    Actually, we ought to vote on a lot of these people. There 
are four U.S. attorneys, two U.S. Marshal nominees pending. 
There are 36 pending judicial nominees. We ought to vote on 
those.
    I regret that the Senate has lost sight of the fact that 
for each nomination statistic, there is a man or woman whose 
career has been placed on hold and whose reputation may suffer 
unwarranted and unintended detriment if we do not perform our 
duty and that the American people within the jurisdiction of 
the Federal courts with longstanding vacancies are also being 
punished.
    We have held more than 20 hearings since February, but we 
haven't held a single confirmation hearing for any nominee. It 
is May and the Senate has confirmed only two judges and two 
U.S. attorneys all year long. It is time we ought to move on 
that.
    It will be a revealing test of our diligence as legislators 
to see at the end of the day just how much we are able to move 
forward on these issues. The American people deserve safe 
streets. They deserve safe schools. They deserve continued 
protection of their civil rights. They deserve bipartisan 
cooperation toward effective Federal law enforcement.
    I will put my full statement in the record and go and vote 
now, but, again, I would commend you, Madam Attorney General. 
During your tenure we have seen the violent crime rates come 
down in this country at a greater rate than we have at any time 
since I have been in public office, and I commend you for that.
    [The prepared statement of Senator Leahy follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Attorney General Reno, I am delighted to see you and look forward 
to working with you in the days and months ahead to make progress on 
the justice issues we face as a nation.
    We are all grieving, again, for victims of school violence. I have 
commended the President for having convened the October 1998 White 
House Conference on School Safety. We are working with you to provide 
additional community police and school resource officers across the 
country. I also know that you and the Secretary of Education and the 
Surgeon General are all working on additional initiatives.
    For the last several years a number of us have sponsored 
legislation in this area. Much of that legislation was never considered 
by our committee, although we were able to incorporate portions in 
measures that have been enacted. We reintroduced, again, on the first 
day of this session as one of the Democratic priorities, S. 9, The Safe 
Schools, Safe Streets, and Secure Borders Act of 1999, which builds on 
the successful programs we implemented in the 1994 crime law. Our bill 
is comprehensive and realistic. The new program initiatives are funded 
by extending the Violent Crime Reduction Trust Fund for two more years. 
We have tried to avoid the easy rhetoric about crime that sometimes 
comes too easily in this crucial area. Instead we have crafted a bill 
that can help make a real difference.
    The Safe Schools, Safe Streets, and Secure Borders Act targets 
violent crime in our schools, reforms the juvenile justice system, 
combats gang violence, cracks down on the sale and use of illegal 
drugs, enhances the rights of crime victims, and offers meaningful 
assistance to law enforcement officers in the battle against street 
crime, international crime and terrorism. Our bill, cosponsored by 
Senators Kennedy, Biden, Torricelli, Schumer and others, represents an 
important next step in the continuing effort to enact tough yet 
balanced reforms to our criminal justice system.
    Unfortunately, this committee has spent more time these last 
several weeks and this last year on the symbolic issue of the proposed 
flag amendment to the Constitution than it has on school violence. The 
Committee has held four hearings on that proposed constitutional 
amendment in the last year and none on the tragic school violence 
incidents that have occurred throughout the country. I was disappointed 
when the Committee decided to postpone last week's long-scheduled hate 
crimes hearing. Senator Kennedy has developed a good legislative 
proposal that many of us have cosponsored and that many of us think can 
help make a difference in providing federal resources and backup 
authority on a serious and all-too-current crime problem. And I am 
disappointed that this week, the Subcommittee on Youth Violence 
canceled its hearing on ``Reducing Juvenile Violence through 
Recognition of Early Warning Signs.'' That might have given us a useful 
opportunity to talk about the efforts like the booklet developed after 
the White House Conference on School Violence that is now available to 
schools throughout the country.
    Senator Lott, the Republican Majority Leader, indicated last week 
that he will allow the Senate turn its attention to these matters next 
week with a full and open debate on proposals to combat school 
violence. I look forward to that debate and to Senate action on this 
problem. We will need your help to come to a balanced legislative 
proposal that recognizes the contributions that prevention and 
community policing can make. We all know that the Federal Government 
and federal law alone cannot solve the problem of school violence or 
local crime. Nevertheless, we should help or at least make help 
available. We must recognize the traditional prerogative of the States 
to handle the bulk of juvenile crime while we redouble our efforts to 
find ways to help parents and State and local authorities on matters of 
school safety. After three years in which we have missed opportunity 
after opportunity to cooperate in a bipartisan way on these matters, it 
is long past time to put partisanship aside and work together with the 
Administration to make progress on prevention and enforcement crime 
matters that affect us all. Unlike many crime issues that have come 
before the Committee in recent decades, youth crime can readily be 
addressed on a bipartisan basis--if we will just make the effort to get 
the job done--and we cannot afford to squander any more chances to work 
together to tackle these problems.
    Under your leadership and the programs established by the Violent 
Crime Control and Law Enforcement Act of 1994, the nation's serious 
crime rate has declined for six straight years. We are seeing the 
lowest recorded rates in many years. Murder rates have fallen to their 
lowest levels in three decades. Even juvenile crime rates have also 
been falling. Since 1994, violent crimes by juveniles and the juvenile 
arrest rates for serious crimes have also declined. Our federal, State 
and local law enforcement officers have been doing a good job in this 
regard, and you should be commended for greatly improving the 
effectiveness of our federal assistance efforts and for extending the 
reach of those efforts into rural areas. Just last month, a matter on 
which we worked closely to assist State and local law enforcement 
officers, the Bulletproof Vest Partnership Act, began to be implemented 
by the Department, and that help is being made available on-line with a 
minimum of bureaucratic hassles. I thank you for your leadership is 
these critical areas.
    I also commend you for helping to stem the tide of domestic 
violence and for moving aggressively to help the victims of this abuse 
and to improve rights and services for crime victims in general. I hope 
that you and others in the Department will work with us on the crime 
victims initiatives that we reintroduced last week in S. 934, the Crime 
Victims Assistance Act. In particular, I know that the emergency 
reserve we established in 1995 and 1996 from the Crime Victims Fund is 
being put to good use in the aftermath of the violence in Littleton. 
While I intended my original amendment to provide authority to help the 
victims of international terrorism, like the families of those on Pan 
Am flight 103 over Lockerbie, Scotland, I understand that restrictive 
interpretation of the final language of that amendment has led to 
problems. I would hope that we could fix those problems for those 
victims' families and for those affected by the Khobar towers and 
embassy bombings last year, without delay.
    I also will appreciate the continuing cooperation of you and your 
staff and of the staff of the Immigration and Naturalization Service 
and the Office of Special Investigations in evaluating the sufficiency 
of current resources, strategies and cooperation among the Department's 
agencies in investigating allegations of human rights violations by 
individuals who have immigrated to the United States.
    The Department also deserves credit for the good work being done by 
Bill Lann Lee as acting head of the Civil Rights Division. He has done 
a fine job and should not be relegated to second-class status any 
longer. The President has now had to renominate Bill Lann Lee for a 
third time. It is time for the doors of the Senate to be opened to this 
nomination and for the Senate to vote. I believe that in fairness and 
out of a sense of dignity this committee should report his nomination 
to the floor for a Senate vote without further delay. Bill Lann Lee has 
earned our support, and all American's will be well served by his 
confirmation.
    Mr. Lee's nomination is one of three nominations for Assistant 
Attorney General positions currently pending before the Committee. In 
addition, there are five U.S. Attorneys and a U.S. Marshal nominee 
pending. There are 36 pending judicial nominees for the many vacancies 
that plague the federal courts around the country. Chairman Hatch 
correctly noted a few weeks ago that consideration of judicial 
nominations is ``a serious responsibility of this committee'' and that 
what is important is ``the actual performance of our responsibility to 
examine and take action on the qualified judicial nominees sent to us 
by the Administration.'' I regret that the Senate has lost sight ``of 
the fact that for each nominations statistic, there is a man or woman 
whose career has been placed on hold and whose reputation may suffer 
unwarranted and unintended detriment if we do not perform our duty'' 
and that the American people within the jurisdiction of the federal 
courts with longstanding vacancies are also being punished by the 
Senate's inaction. Although our committee has held more than 20 
hearings since February, it has yet to hold a single confirmation 
hearing for any nominee. It is May and the Senate has confirmed only 
two judges and two U.S. Attorneys all year.
    By contrast, the Department has much of which to be proud. I hope 
that we will have an opportunity today to hear from the Attorney 
General about these efforts and accomplishments and the plans to 
increase the effectiveness of our law enforcement efforts over the 
coming years. It will be a revealing test of our diligence as 
legislators to see at the end of today just how much we have been able 
to bury partisanship in the interest of shedding light on the long list 
of issues that fall within our jurisdiction and within the 
responsibilities of the Attorney General. The American people deserve 
safe streets. They deserve safe schools. They deserve continued 
protection of their civil rights. And they deserve bipartisan 
cooperation toward effective federal law enforcement.

    Senator Thurmond [presiding]. Ms. Reno, you may give your 
opening statement.
    Attorney General Reno. Mr. Chairman, why don't we just go 
ahead to your questions, if that would be OK?
    Senator Thurmond. Proceed to questions?
    Senator Grassley. We did meet Senator Hatch, and if you 
were going to give an opening statement, he wanted us to start 
in the meantime while he came back. So did you not have an 
opening statement? Because if you don't, we will go to 
questions.
    Attorney General Reno. I think you might as well go to 
questions.
    Senator Thurmond. Thank you. Ms. Reno, I am extremely 
concerned about the possible damage to our national security 
that may have been caused by the compromise of nuclear weapons 
design codes at Los Alamos National Laboratory. I understand 
that in 1997 the Justice Department rejected the FBI's request 
to seek court approval to establish a wiretap on the telephone 
and computer of Wen Ho Lee, a scientist suspected of 
compromising these codes. News reports indicate that the FBI 
actually did eavesdrop on Mr. Lee as far back as 1982 
concerning nuclear weapons-related espionage.
    The question is: Why did the Justice Department reject the 
FBI's 1997 request to seek court approval for a wiretap?
    Attorney General Reno. Senator, the matter is, all these 
materials are classified, and I would be happy to arrange for a 
briefing with the committee and staff that has proper security. 
It is also in the middle of a pending criminal matter, and we 
would not want to do anything that would interfere with that. 
But I would be happy to work with you in doing everything I can 
to appropriately brief you on the matter.
    Senator Thurmond. Ms. Reno, were you personally made aware 
of the request for the 1997 wiretap regarding Mr. Lee? And if 
not, does the Department have records regarding who was 
responsible for rejecting the FBI's request?
    Attorney General Reno. With respect to all of these 
matters, sir, I think it is important that it be done in an 
appropriate manner with appropriate classification.
    Senator Thurmond. Serious questions have been raised in 
various congressional committees about problems with the 
Department of Energy's management of security at the National 
Laboratories such as Los Alamos. Do you believe the 
responsibility for security at these facilities should be 
transferred from Energy to the FBI?
    Attorney General Reno. I think it is important that we 
proceed with this matter and then make appropriate 
determinations in conjunction with Secretary Richardson and 
after further discussion.
    Senator Thurmond. On a different topic, after the Supreme 
Court issues its decision in Miranda v. Arizona in 1966, the 
Congress passed a statute, 18 U.S.C 3501, for the courts to use 
to evaluate whether a confession was voluntary. Recently, the 
Fourth Circuit Court of Appeals followed other courts and ruled 
in the Dickerson case that this statute is constitutional. The 
court also criticized the Justice Department for refusing to 
enforce the statute.
    The question is: Has the Dickerson case in the Fourth 
Circuit caused you to reconsider your refusal to enforce the 
statute?
    Attorney General Reno. As you know, it is the subject of 
ongoing litigation in the Dickerson case to which you refer. 
The defendant in that case is expected to file a petition for 
certiorari, and we will be called upon to respond to that 
petition. Our response will, of course, depend in part on 
precisely what is said in the petition. It would be 
inappropriate for the Department to address the subject of 
current litigation in any forum other than the court. We would 
be happy to provide you with the briefs we have filed on the 
subject.
    Senator Thurmond. If the Supreme Court accepts certiorari 
and hears the Dickerson case, it is important for the Senate to 
know whether the administration will defend the 
constitutionality of section 3501 because the Senate should 
defend the law if the administration will not. If the Dickerson 
case is considered by the Supreme Court, will the Justice 
Department argue that the statute is constitutional?
    Attorney General Reno. Again, our response would depend in 
part on precisely what is said in the petition, but I can 
assure you that the Solicitor General takes quite seriously his 
responsibility for defending the constitutionality of the 
statutes of this country and for coordinating this effort with 
Senate counsel.
    Senator Thurmond. Even if the Supreme Court does not accept 
certiorari and does not hear the Dickerson case, the fourth 
circuit has held section 3501 constitutional. Will the Justice 
Department encourage the courts to apply this law to the fourth 
circuit?
    Attorney General Reno. In the fourth circuit, we have 
issued directions to the prosecutors to call to the attention 
of the district courts the court's ruling in the Dickerson 
case.
    Senator Thurmond. In recent years, the Department of 
Justice has experienced problems with its financial statement 
audits. Although there have been some improvements, the 
Department has received a disclaimer of opinion for 3 years in 
a row concerning certain agencies, including the INS and 
Marshals Service. As you know, a disclaimer of opinion means 
that the information provided to the auditors was so 
insufficient that they were unable to give an opinion 
concerning the condition of the finances.
    Are you concerned about these difficulties with balancing 
the Department's books? And when do you expect the problem to 
be fully addressed?
    Attorney General Reno. We are always concerned with 
situations like that, and we are focused on that and hope that 
it will be resolved very shortly.
    Senator Thurmond. There has been a great deal of discussion 
recently about gun laws. As you know, gun prosecutions were 
higher in the Bush administration than in the Clinton 
administration. President Bush's Attorney General issued the 
Thornburgh memorandum prohibiting U.S. attorneys from dropping 
gun charges. However, I understand that when you became 
Attorney General you modified the Thornburgh memo to give 
prosecutors more discretion regarding gun charges.
    The question is: Do you believe that this change in policy 
may have contributed to the decline in firearms prosecutions?
    Attorney General Reno. No, I don't think that that change 
in the Thornburgh memorandum contributed. What we tried to do, 
Senator, was recognize that numbers are not the issue. What is 
at issue are the organizations that perpetuate violence 
throughout the community. What is at issue are major criminals, 
and what is at issue is forming a partnership with State and 
local authorities so that each one is involved in planning on 
how to do these cases and who can handle the cases in the best 
interest of the community.
    For that reason, we focused on major criminal 
organizations, and yet we developed in March 1994 an 
antiviolence initiative in which Federal agencies came together 
to plan in each district and community and then reach out to 
State and local officials to plan with them what the major 
crime problems were, who should handle which cases, and, for 
example, in Boston, the U.S. attorney and the local DA meet 
regularly. The local DA takes most of the cases involving small 
gun cases, but where interests of federalism or principles of 
prosecution dictate that the Federal authority should take it, 
they take the case.
    What we are interested in is the bottom line and the 
result, and the result in Boston has been a dramatic decrease 
in the number of youth homicides, for example, attributed in 
part to that.
    What we want to do is work with everyone concerned in a 
thoughtful, bipartisan way to address these issues, not in 
terms of numbers but in terms of results.
    Senator Thurmond. I just have one more question. I 
understand that in the 1996-1997 school year, over 6,000 
students were expelled for bringing a firearm to school, but 
there were only eight Federal prosecutions last year for 
possessing a firearm on school grounds. I recognize that 
prosecutions may have been brought under State laws. However, 
do you think that Federal prosecutions are sufficient? And if 
so, are Federal laws like this useful?
    Attorney General Reno. I think Federal laws like this can 
be very useful in certain jurisdictions where there may not be 
the capacity or the law that permits the prosecution of it. But 
in most instances, the State and local authorities are going to 
be on the front line on these issues. It is basically a local 
issue, and this is part of our partnership in trying to reach 
out to them and say when there is a reason why you can't bring 
the case, we want to be prepared to do it.
    Senator Thurmond. That completes my questions, and I thank 
you very much.
    Attorney General Reno. Thank you, Senator.
    The Chairman. Thank you.
    General would you care to make your opening statement?
    Attorney General Reno. If you don't mind, because it is 
important.
    The Chairman. I would like to hear it. I am personally 
pleased that you waited until we could get back.
    Attorney General Reno. I appreciate that.
    The Chairman. I apologize. There are other Senators who 
want to be here, but this vote right at this time has 
inconvenienced all of us.
    Attorney General Reno. Please don't worry about it.
    The Chairman. So let's take your testimony at this time, 
and then what I will do is I am going to defer my initial 
question round to Senator Specter, and he can have his when it 
comes in the normal course. He was the first to arrive, so we 
could go to him after the next Democrat. But we will go with 
you then, General Reno.

STATEMENT OF HON. JANET RENO, ATTORNEY GENERAL, U.S. DEPARTMENT 
                   OF JUSTICE, WASHINGTON, DC

    Attorney General Reno. I have been in office a little over 
6 years, Mr. Chairman. My first hearing before this committee 
began March 9, 1993, and it is very vivid in my mind. I think I 
have now had five oversight hearings plus some additional 
hearings before this committee, and as I look at these 6 years, 
we have done so much together. We have also disagreed upon 
occasions, but we have really worked together, I think in a 
very thoughtful, bipartisan way, and I have a great respect for 
the committee and for each and every one of its members. And 
before I do anything else, I would like to thank you all for 
your thoughtfulness and your kindness to me during these 6 
years, even in the middle of some fierce disagreements.
    Senator Biden. I wouldn't go overboard, General. We are not 
all that nice.
    Attorney General Reno. Yes, Senator. I would have to 
disagree with you. They have all been--even Senator Specter, 
when he looks over his glasses at me. [Laughter.]
    The Chairman. In some ways, we are a lot nicer than the 
other side, I want you to know.
    Attorney General Reno. I think you were very gracious, Mr. 
Chairman, and that is one of the reasons I waited to make my 
opening statement with your thoughtful comments.
    The Chairman. I appreciate that.
    Attorney General Reno. But I would not take the credit. I 
think all America, this committee, this Congress, all America 
deserves credit for the fact that violent crime is down 21 
percent since 1993 and at its lowest level since 1973.
    The overall crime rate is at the lowest level in nearly a 
quarter of a century. Murders are down more than 20 percent in 
larger cities and suburban communities. And violent crime by 
juveniles is down for the third year in a row.
    Mr. Chairman, when I came before this committee in 1993, I 
said that youth violence, wherever it was, was one of the most 
serious crime problems we faced in America. And our job is, as 
you point out, still far from done. Now more than ever, we have 
to resist the temptation of complacency. The tragedy at 
Littleton reminds us all that there is still too much violence.
    I agree with you. I think we can work together and 
substantially eliminate the culture of violence and the 
attitude towards violence in this country. And I just thought 
your comments were right on target for eliminating the attitude 
that we have. I would like to describe just in a general way 
where I think we can go.
    There was a certain partisan tinge, but there is also a 
thoughtful nonpartisan approach in your comments. If we can 
work together and understand that crime is not a Democratic or 
a Republican issue, as I think we have on so many occasions in 
this committee, if we can do everything we can not to 
politicize it, if we can react based on common sense and hard 
facts, analyzing the intelligence, develop the strategies, 
working with State and local officials.
    Let me give you an example, Mr. Chairman. When I came into 
office, I had had some experience with weed-and-seed in Miami. 
There were only about 2 dozen weed-and-seed sites in the 
country. Weed-and-seed is a Republican program. It has now been 
increased to over 200 sites because it is a good program and it 
is working, and that is an example of how I think we can come 
together to address these issues.
    I think it is important and I know when you held your 
hearing on the appropriations process you raised this issue 
that we approach the problem with the idea that we must 
preserve principles of federalism. We are focused on how to 
reach a balanced budget. No one wants local and State law 
enforcement dependent on Federal law enforcement for the long 
run. It should stand on its own and not be permanently 
dependent on Federal dollars. But Federal dollars can have a 
marvelous effect in a community and in initiatives across the 
country by providing new initiatives and giving them a chance 
to see what works and what doesn't work, by providing 
communities such as existed in 1993 who were in crisis for 
violence with seed money to develop new programs. And so we 
have seen Federal dollars, thanks to this committee and 
Congress, use community policing, which needs to be enhanced 
now so that it becomes ingrained in the community.
    What you, what Senator Biden--Senator Biden, thank you for 
that wonderful day in Delaware. It is just encouraging to see 
what can be done. But you, Mr. Chairman, with your leadership, 
the two of you together--and you take more of the credit, Mr. 
Chairman, but you have worked together on it. In terms of 
domestic violence and violence against women, Congress has 
begun to change the whole attitude towards domestic violence in 
this country, and I wish you had been there, Mr. Chairman, 
because you would have appreciated the comments by the citizens 
that things were different now because of what you all have 
done with the Violence Against Women Act.
    Drug courts. When I came to Washington, I told you about 
the drug courts. A Republican Congress has continued to spread 
drug courts across the land in a thoughtful, bipartisan effort 
because it is working.
    Technology. I wish Senator DeWine were here and Senator 
Leahy, but their initiatives with the DeWine-Leahy Act are 
again an example of how we must help State and locals adjust to 
the new technology, develop the new technology so that they 
will be prepared for the next century.
    Community-building and youth violence, initiatives that can 
make a difference are so important. Federal responsibilities 
are important as well. I have addressed the issue of what the 
Federal Government can do as a partner. And terrorism, national 
security, and crime that crosses district and State lines, 
exchange of information, legislation, all of this can be so 
important.
    With respect to guns, Mr. Chairman, we have a wonderful 
opportunity. In the period 1992 to 1996, Toronto, a city 
somewhat the same size as Chicago, had about 100 gun homicides 
for the whole period. Chicago had 3,063 during the same period. 
We don't have to accept violence as a way of life in this 
country, and I think we have reached the point where we can put 
aside the rhetoric and sit down and figure out that guns kill 
people, that we ought to--as a Nation, if we can send people to 
the moon and do some of the things that we have done, we ought 
to be able to sit down and figure out how we keep guns out of 
the hands of people who do not know how to safely and lawfully 
use them or have evidenced an unwillingness to do so.
    The President has presented a package. Other people have 
ideas. Let's get together and come up with something that 
really addresses the problems that this Nation faces with guns, 
while at the same time recognizing those that have law-abiding 
purposes with the guns.
    It is important that there be a balance, and I was so glad 
to hear you talk about prevention because prisons wouldn't have 
worked in Littleton. They knew what they wanted to do with 
their life when they went into that school, and prisons weren't 
part of it and were not a deterrent.
    If we can develop programs through education, prevention, 
intervention, punishment that is fair, firm, fits the crime, 
and makes clear to every American that they are going to be 
held accountable when they do wrong, and that there are chances 
of success when they come back from detention facilities or 
from prison, that there are reentry programs that give them a 
chance to come into the community, we can do so much if we form 
and enhance our partnerships with law enforcement across this 
country. We can do so much if we work with communities that 
understand their needs and resources better than we do and help 
them begin to build.
    I have seen a city that you care a lot about and I have 
come to care a lot about, Salt Lake City. I have seen programs 
in Delaware where they are making a difference. I have been to 
Philadelphia and seen so much of what is going on there in 
terms of community-building, and to Boston. Communities have a 
vitality and an excitement and a can-do attitude about 
reweaving the fabric of community around children, creating the 
building blocks of strong and healthy children, strong parents, 
free of domestic violence, educare, nutrition, proper medical 
care, afternoon and evening supervision, truancy prevention, 
school-to-work programs, school counselors, conflict 
resolution.
    We know some of the things that can work. We don't know 
whether they will work with respect to every child. But we are 
trying to form a partnership with communities to address that, 
and in that connection, we have developed a grant between three 
Departments. HHS, Education, and Justice have come together to 
create a unified grant for communities across America that 
provides for funding in a comprehensive way to address healthy 
children, safe schools issues. Doing and building on programs 
like that, we can truly make a difference.
    I really look forward----
    The Chairman. Could I interrupt you just a second on that? 
You are hitting a lot of things I really believe in, and I 
think most of us up here do, and I am very appreciative of it. 
And I am a great believer in prevention and juvenile justice 
matters, as are my friends on both sides, especially Senator 
Biden, who has worked very closely, and Senator Feinstein. And 
I don't mean to interrupt you, but I just--pardon me for 
interrupting you, but----
    Attorney General Reno. That is OK.
    The Chairman. At this point it just seemed like a good 
point to just ask you, today and at last year's oversight 
hearing, you pledged to help Congress enact juvenile justice 
legislation. However, we are not aware of the Department's 
position on the bill we filed, S. 254, the Violent and Repeat 
Juvenile Offender Accountability and Rehabilitation Act. Could 
you tell us where you stand on that and whether you are going 
to help us? Because that comes up next week and I need your 
help on it.
    Attorney General Reno. What I want to do is work with you 
to make sure that there are programs for prevention out there 
that can make a difference, that if there is a need for further 
accountability on the part of juveniles, we address that issue. 
I will be happy to sit down with you. One of the things that I 
am excited about is----
    The Chairman. It is going to happen next week, so we need 
to sit down, we need to work this out.
    Attorney General Reno. I will call you when I leave and 
make an appointment.
    The Chairman. It was unfair of me to interrupt you, but I 
just wanted--you are making some very important points in my 
eyes, and rather than wait until you were through, I thought I 
would right at this point----
    Attorney General Reno. OK, let me get----
    Senator Biden. Mr. Chairman, just a 10-second intervention.
    The Chairman. Sure.
    Senator Biden. You and I have been working at length on 
this, and I just want you to know the Justice Department has 
been in every single piece of the negotiation, because there is 
nothing I have agreed with you about that I haven't checked 
with Justice, and there is nothing that Justice hasn't said. In 
other words, the only problem we have is whether there is 
enough prevention money in----
    The Chairman. I can presume that Senator Biden speaks for 
you, then. That is----
    Senator Biden. No, I don't speak for the General----
    Attorney General Reno. No, no, no.
    The Chairman. No, no. But I----
    Senator Biden. No one speaks for the General.
    The Chairman. I presume that Senator Biden and Senator 
Feinstein are working----
    Attorney General Reno. This is the reason I raise it, just 
by the--I mean, you used to get after me last year about 
talking about prevention too much, and so I am glad that you 
are----
    The Chairman. I don't think I got after you. Maybe others 
did.
    Attorney General Reno. But with this approach, I will call 
you as soon as I leave. I will call your office and find out 
when I can come, or I will be happy to meet with you and 
Senator Biden, whatever we can----
    The Chairman. Senator Sessions is a key player----
    Attorney General Reno. And Senator Sessions who has been a 
real leader in this whole effort.
    But we have got the chance to really make a difference, and 
I think we can do it, and I will make myself available----
    The Chairman. I am sorry to interrupt you. I just----
    Attorney General Reno [continuing]. And now I will hush up.
    The Chairman. Well, are you through? I didn't mean to 
interrupt you like that. Continue if you care to talk about 
anything.
    Attorney General Reno. I just think we have got to make 
sure that our kids are held accountable, but no one wants to 
see a kid commit a violent act if it can be prevented. And if 
we can fashion a balance between punishment and prevention and 
as well, Mr. Chairman, reentry into the community--we send too 
many kids home after having detained them without any followup 
or support. And when they come back to the apartment over the 
open-air drug market where they got into trouble in the first 
place, it just spells trouble again. We have a chance, working 
with communities, to really, really make a difference.
    And one final point, Mr. Chairman. I think there is a 
significant--and the Deputy Attorney General has done a 
marvelous job in this regard of focusing on children who are 
witnesses or victims of violence. The studies now clearly 
indicate that the child who is abused too often becomes the 
abuser. And for too long now, we have let children drift 
through foster care, and when they are abused and neglected, we 
have not focused attention on them.
    We have done some really good things with drug courts 
together. Let us work together to develop some model children's 
courts as well. We are on our way to doing that.
    The Chairman. I also want you to look at the effect of the 
Internet, movies, video games, and so forth and see if there is 
something we can do in those areas, too, that is fair to the 
communities, to the business community, but also fair to our 
children. So give some thought to that.
    Attorney General Reno. We are in the process of doing that. 
One of the things that we are doing, Mr. Chairman, is looking--
the parent who is with the child during the day knows where the 
child goes. The parent who has to work, whether it be where the 
child goes or where the child goes on the Internet, needs help 
and we need to work on that.
    The Chairman. Senator Thurmond has already asked his 
questions, and I will defer my question period to Senator 
Specter, who has requested that, but we will go to the ranking 
member first. Then I will defer to Senator Specter.
    I suspect we will give you double the time because you will 
have my time and yours.
    Senator Specter. Thank you, Mr. Chairman.
    The Chairman. I will defer to you, and then I will go to 
the next Democrat and then back to you.
    Senator Leahy. Let me start off with a discussion, and then 
we will go to questions. As I said earlier in my opening 
statement, I am glad if there is an indication that we will 
finally move to these issues of violence and juvenile crime. 
Maybe some of the hearings that we have had canceled this year 
will be put back on the agenda, and we can go to it. I 
appreciate the chairman, as I said in my opening statement, 
saying now that we are going to look at it after all and 
Senator Lott saying the same.
    I appreciate your response yesterday, Attorney General, to 
my letter of March 4, regarding independent counsel costs. I 
understand the Department continues to insist as a matter of 
policy it serves no more than a ministerial role of a 
dispersing officer and does not have the responsibility to keep 
detailed accounting of independent counsel expenditures or to 
provide oversight on how they spend their unlimited budgets.
    I do have a few questions about the information you were 
able to provide me. I spoke the other day about Mr. Schmaltz on 
the floor, and I will not go into things like self-
aggrandizement that he expressed by passing out wristwatches 
referring to a prosecution of a former Cabinet member as though 
that Cabinet member was some kind of a big-game trophy or any 
of the other disgusting and, as I described on the Senate 
floor, stupid things he did, but let me just go to Mr. Starr.
    I note that over the course of Mr. Starr's investigation, 
78 FBI agents, 25 Federal prosecutors, 524 support employees 
from the Department had been detailed to him.
    In looking at the number, to put this on contrast, and I 
realize I am just a lawyer from a small town in Vermont, it 
appeared to me this is more people than we have in most small 
towns in Vermont.
    Is it an unusually high number, 600 Department employees?
    Attorney General Reno. I understand that the 600 number is 
the total number deployed, detailed over----
    Senator Leahy. I broke it down. It is 78 FBI agents, 25 
Federal prosecutors, 524 support employees.
    Attorney General Reno. That is detailed over the entire 
course of the investigation and not at any one point in time, 
but I am not in a position to comment since I am unfamiliar 
with the work since I have tried to ensure his independence. I 
am unfamiliar with the work, and I cannot comment.
    Senator Leahy. I wish somebody with a checkbook would take 
a less, independent attitude, so we at least would know what is 
going on. Is it common practice to take Federal prosecutors 
away from their assigned duties to be detailed to staff 
independent counsel investigations?
    Attorney General Reno. I understand that the Department has 
routinely detailed prosecutors to an independent counsel when 
requested through several administrations.
    Senator Leahy. Mr. Starr used almost 80 FBI agents, but he 
still spent a million dollars on private eyes or private 
investigators and $850,000 on unspecified experts. Is there 
really almost $2-million worth of investigative matters that 
would fall outside the expertise of FBI agents requiring these 
private detectives and experts?
    Attorney General Reno. I do not know, Senator.
    Senator Leahy. All right. I see that Mr. Starr spent 
$196,000 on cash awards. Any idea what that might be?
    Attorney General Reno. No, sir.
    Senator Leahy. The Department reimburses attorneys' fees to 
some Federal employees called as witnesses. The taxpayers paid 
out about $11,000 in such expenses for Mr. Starr. The 
Department has 24 more pending requests in connection with Mr. 
Starr's investigations. Do you know how much this is going to 
end up costing the taxpayers?
    Attorney General Reno. I do not have the details on that, 
Senator. I will try to have someone go through it and total it, 
but we have not maintained it in that fashion.
    Senator Leahy. My point is that we seem to have a automatic 
ATM machine that the special prosecutor can keep just punching 
and the money comes out, but no details are made of where it is 
spent, how it is spent, who it is spent on or anything else, 
and I realize the necessity of keeping the independence of this 
person, but we do not allow anybody this kind of independence. 
We are all elected officials up here who supposedly just 
respond to the electorate of our States, but we have to account 
for everything we spend from a piece of stationery we buy to a 
trip we take.
    I am a little bit concerned that you can have somebody 
spend millions and millions of dollars, detailed over whatever 
period of time, 600 Federal employees, hire private 
investigators, private detectives, experts and so on, with no 
specification of who they are, what they are for, or anything 
else, and spend $2 million extra there on top of a $40-million 
investigation and nobody knows how it gets spent. In my State, 
$40 million is a lot of money.
    The Boston Globe this week published two articles reporting 
the individuals who may have committed human rights crimes 
abroad and at least several individuals have entered with ease 
under immigration laws. The INS efforts to investigate these 
allegations against them seem to be ineffectual.
    One of the individuals that the Boston Globe mentioned 
currently resides in Burlington, VT, my home, and the 
allegations made against him are very serious.
    The article also raises questions about whether the 
Department of Justice has a workable or operative strategy to 
handle such cases, and this seems to be a repeat of the 
problems that led to the creation of the Office of Special 
Investigations in 1979.
    What does the Department of Justice and Immigration and 
Naturalization Service do when it becomes aware of allegations 
that a person who has been legally admitted to the United 
States may have committed human rights crimes abroad? Is there 
coordination like, for example, INS, OSI, and so on, and does 
OSI have the authority to pursue cases of war crimes?
    Attorney General Reno. My understanding is that OSI works 
specifically with Nazi war criminals, but we take generally 
this whole category of cases involving people who may have 
committed human rights crimes abroad very seriously, and we 
pursue them.
    Generally we receive leads with regard to potential war 
criminals or others from organizations such as Amnesty 
International or the Center for Justice and Accountability. 
They often give us source information which we can follow up on 
to verify the information, identify the perpetrator, and take 
sworn statements with regards to their actions. We have worked 
with organizations such as The Hague war tribunals, the 
Organization for Security and Cooperation in Europe to gain 
additional corroborating information.
    This information can then be used in removal proceedings 
for possible prosecution if we can confirm conclusively that 
the individual misrepresented themselves when they applied for 
immigration status.
    That being said, it is often hard to make these cases, as 
there is usually very little documentation available, and the 
legal standards for prosecution of having committed genocide or 
systematically persecuted others or having them part of an 
effort to violate human rights, it is very difficult to prove.
    Senator Leahy. My time is up, but let me suggest this, 
Attorney General. I understand the procedure, and I understand 
what the departmental policy is. It might make it easier, 
though, to understand how it is applied to a specific case. So 
let me do this. I will get to you and your staff the accounts 
of this particular person as it is reflected in Vermont, as the 
Boston Globe outlined, and then if you could have somebody meet 
with me and my staff and explain what steps were followed in 
this particular case, how they reflect policy, because I 
suspect if there is this case, there will be other cases in 
other parts of the country, and if we could take this 
particular one and follow it down, what a procedure has done 
there, that would be very helpful to me.
    Attorney General Reno. We will follow up and do everything 
that we can to share the information with you, and I think your 
suggestion is very, very important.
    Senator Leahy. Thank you, Attorney General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Leahy.
    As per Senator Specter's request, I will defer my time to 
him, and then we will come back to you.
    Senator Specter. Thank you very much, Mr. Chairman, for 
scheduling me to question at this time.
    I join my colleagues, Madam Attorney General, in welcoming 
you here, and I agree with what Senator Hatch has said about 
the generally very good job that you have been doing on so many 
areas, although there have understandably been disagreements.
    Your work in the juvenile field is exemplary, and the 
pushing of the gun prosecutions, including my home State, 
Southeastern Pennsylvania, is exemplary.
    I put at the top of my list for questioning the very 
important issues which have arisen involving national security 
with respect to China, the espionage issue, the satellite 
issue, and the prosecutions which are pending.
    A very important question is posed today for congressional 
oversight as to what action was taken by the executive branch 
going directly to the President.
    In his March 19 news conference, President Clinton first 
commented about security breaches and then said, ``Now I think 
there are two questions here that are related, but ought to be 
kept separate. One is was there a breach of security in the 
mid-1980's, and if so, did it result in espionage.'' That has 
not been fully resolved, at least as of my latest briefing. So 
that, on March 19, President Clinton says the issue of 
espionage is an open question.
    According to a variety of sources, Deputy Attorney General 
Eric Holder reviewed a request by the FBI for a search warrant, 
and without going into any of the details, which was turned 
down.
    There has also been extensive public comment about a major 
memorandum which was prepared in November 1998 distributed to 
top Department of Justice officials. So that, on this date of 
the record, there are at least two major points of 
notification, at least from what we know, and we ask you for 
the specifics coming to the Department of Justice, to your top 
Deputy and the memorandum to top officials.
    My question to you is, did the Department of Justice, 
either the Deputy, you or others, advise the President that the 
issue of espionage had been clearly established, substantially 
before his March 19, 1999, news conference?
    Attorney General Reno. It is very difficult for me to 
answer these questions because you posed some questions or make 
some points that I would have to go back through classified 
information, and what I suggested at the outset was I would be 
happy to arrange for an appropriate classified briefing of this 
matter so far as it did not impact on the pending criminal 
case.
    Senator Specter. All right. I would appreciate that, and it 
may be that some of these matters will have to go into closed 
session.
    Attorney General Reno. I would be happy to do that.
    Let me first make a point. We have reviewed all of the 
information, and we will continue to review it. We are working 
with Senator Rudman to make sure that everything is 
appropriately reviewed, but I have no reason whatsoever to 
conclude that the Deputy Attorney General at this point 
reviewed the matter, that it was brought to him, and I think it 
is very important that we look at it all very carefully and 
give you as much information as we possibly can that does not 
affect the pending investigation.
    Senator Specter. I agree with you about the care. Deputy 
Attorney General Holder was asked about this question on a 
Sunday talk show several days ago, and gave an ambiguous answer 
as to what had come to his attention. So let us defer that.
    I think that the question as to whether the Justice 
Department notified the President about espionage does not call 
for the disclosure of classified material. Some of the details 
might, but let me go on to the next point.
    The issue of pending criminal prosecutions and pending 
investigations is a complicated one, and in a moment, I will 
cite the authorities which I think--and, of course, I want your 
views--give the Senate and congressional oversight authority to 
move into those matters, but before getting to the statements 
of law, let me take up factually two matters.
    One matter involves the satellite launches. Between 1989 
and 1998, there were 13 Presidential waivers of post-Tiananmen 
Square sanctions for exports of satellites or parts to China. 
Seven of those 13 waivers came in the Presidential election 
year of 1996. Four of those seven waivers were for Loral or 
Hughes.
    This matter has two parts to it. One part involves the 
allegation that Loral and Hughes gave to the Chinese, the 
technical information which would be relevant on missiles with 
warheads, when they were talking about the satellite launches.
    The other aspect of it involves the campaign contribution 
of an extraordinary nature by the CEO of Loral, Mr. Bernard 
Schwartz, more than 1\1/2\ million dollars.
    Let me put that issue aside for just a moment, Madam 
Attorney General, and go to the second matter, which is in the 
nature of pending investigations and pending prosecutions, 
although somewhat different.
    Johnny Chung has entered a guilty plea, and there was a 
plea bargain. The media reports--and regrettably, that is most 
of what we have to go on--that Johnny Chung told Department of 
Justice investigators that a Chinese intelligence official, 
General Ji Shendai, had transferred $300,000 to Chung, 
contemporaneously at a time when a good bit of classified 
information was being passed on to China.
    Then, when Chung was sentenced, Judge Manuel Real said 
this, that if Democratic Chairman Don Fowler and former 
Democratic Party Finance Director Richard Sullivan ``did not 
know what was going on, they are the dumbest politicians I have 
ever seen.'' ``It is very strange that the giver pleads guilty 
and the givee gets off free.''
    Now, I ask you these questions, Madam Attorney General, in 
the context understanding that they involve pending 
investigations and pending prosecutions, and we have discussed 
these matters at very substantial length. Your response has 
always been that you cannot discuss these matters. Maybe we 
will have to go into closed session, but when we have had 
closed sessions, you have declined to do so because they are 
pending.
    The Supreme Court of the United States in the case of 
Sinclair v. United States said this:

          It may be conceded that Congress is without authority 
        to compel disclosure for the purpose of aiding the 
        prosecution of pending suits, but the authority of that 
        body directly or through its committees to require 
        pertinent disclosures in aid of its own constitutional 
        power is not abridged because the information sought to 
        be elicited may also be of use in such suits.

So the Supreme Court came at the closure on the issue and said, 
as I have just quoted, that it is not sufficient to decline 
congressional oversight when a suit is pending.

    Then, on the issues of investigations, the Supreme Court of 
the United States in McGrain v. Dougherty said the following:

          It is quite true that the resolution directing the 
        investigation, the congressional investigation, does 
        not in terms avow that it is intended to be in aid of 
        legislation, but it does show that the subject to be 
        investigated was the administration of the Department 
        of Justice, whether its functions were being properly 
        discharged or were being neglected or misdirected, and 
        particularly whether the Attorney General and his 
        assistants were performing or neglecting their duties 
        in respect to the institution and prosecution of 
        proceedings to punish crimes and enforce appropriate 
        remedies against the wrongdoers, specific instances of 
        an alleged neglect being recited. Plainly, the subject 
        was one on which legislation could be had and would be 
        materially aided by the information which the 
        investigation was calculated to elicit. This becomes 
        manifest when it is reflected that the functions of the 
        Department of Justice, the powers, duties of the 
        Attorney General, and the duties of his assistants are 
        all subject to regulation by congressional legislation, 
        and that the Department is maintained and its 
        activities are carried on under such appropriations as 
        the judgment of Congress are needed from year to year.

    There has been a Congressional Research Update as of April 
1999 relating that Congress can in oversight in effect require 
information from pending investigations of prosecutions, citing 
authorities from the Palmer Raid, Teapot Dome, to Watergate, to 
Iran Contra which is 1980's, and to Rocky Flatts in 1992.
    I appreciate that is a fairly, fairly long analog, and it 
may be that we are going to have to do this in closed session, 
or it may be that a better way to do it is on an informal 
basis, but I think that as a matter of oversight, when you have 
national security matters involved at an oversight prerogative 
of the highest nature and these matters have gotten to the 
appellate courts and the District of Columbia circuit has 
handled quite a few, they have referenced how complicated it 
is, how important it is, and a balancing to some extent.
    Let me start with my first point.
    The Chairman. Senator, your time is up. I will come back to 
you as soon as Senator Kennedy is through.
    Attorney General Reno. Can I answer that?
    The Chairman. Yes. I apologize to you. Of course, you can 
answer.
    Attorney General Reno. Mr. Chairman, as I recall, you know 
full well the efforts I go to, to meet oversight 
responsibilities that I have to respond, and I think I feel 
very strongly that it is important for the Attorney General to 
be as responsive as she can to Congress to go to every possible 
length to provide information that would not affect the pending 
investigation, to do so in closed session as you and I have on 
occasion, Mr. Chairman, in another circumstance.
    Frankly, Senator, I probably know more than most Attorneys 
General about the whole process and about the accommodations 
process, and I commit to you that I will do everything I can 
consistent with the responsibilities that I have to work with 
you to ensure that you can do your oversight. I suggest that we 
will explore with the chairman if you would like some 
appropriate closed session.
    The Chairman. Senator Kennedy.
    Senator Kennedy. Thank you.
    General we want to again extend a warm welcome to you. We 
are mindful of the very long and distinguished service that you 
have had as the Attorney General of the United States and your 
own public service before that, and I think all of us are very, 
very grateful for what you continue to do as the head of the 
Department. We thank you for being here today.
    Under normal circumstances, General, I would like to 
question you about what we are doing about the INS and INS 
detection, and to talk a little bit about the antitrust laws.
    We have had a recent case in Massachusetts, in terms of 
banks, to give assurance that local considerations would be 
there.
    I want to talk to you also a little bit, as my friend and 
colleague did, Senator Leahy, about the Bill Lann Lee 
nomination, an outstanding individual, and about how important 
it is for the Senate to take action on this issue.
    I want to talk to you a little bit about hate crimes. This 
is an important issue. We still have to address it. We have had 
strong support for you and the President of the United States 
about law enforcement officials nationwide.
    I also want to talk with you a little bit about this racial 
profiling and the traffic-stop statistics legislation. These 
are all very, very important issues.
    Given the limited amount of time that we have on this, and 
I will submit other questions on that, I ask that my full 
statement be entered in the record.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement of Senator Edward M. Kennedy

    Mr. Chairman, the Committee is holding this hearing while the 
nation stands at an important cross road. The epidemic of youth 
violence in our cities and suburbs has taken another victim--Littleton, 
Colorado--and, once again, we find ourselves in the wake of another 
senseless tragedy. Each of us deplores the senseless injury and loss of 
life, the families torn apart, and the communities living in fear.
    Faced with this national challenge, we clearly need to take bolder 
steps to give children, parents, schools, and communities the help they 
deserve.
    We must do more to keep guns out of the hands of children. A 1993 
survey by Louis Harris found that 59 percent of school children in 
sixth through 12th grade said they ``could get a handgun if they wanted 
one.'' A third said they could get one ``within an hour.'' It's a 
national disgrace, but not a surprise, that we lose 14 children every 
day to gunshot wounds. We require aspirin bottles to be child-proof and 
we regulate toy guns. Why don't we do more to protect children from 
real guns?
    We need to pass legislation that calls for safety locks on guns, 
that bans juvenile possession of assault weapons and high capacity 
ammunition clips, that imposes increased penalties on adults who 
transfer guns and ammunition to juveniles, and that takes other 
necessary steps to close the gaping loopholes in the current gun laws. 
I know the Administration and Attorney General Reno support these 
efforts, and I look forward to working with them as we prepare to 
debate these issues in the Senate next week.
    But guns aren't the only problem, and new gun laws are only part of 
the solution. We need to support steps to help parents and teachers 
detect and address the alienation and the many other causes of youth 
violence. Last year, the Department of Justice, the Department of 
Education, and Department of Health and Human Services initiated its 
innovative Safe Schools, Healthy Students plan to support community-
based efforts. Congress can and must do more to support communities 
through this program.
    I am also concerned about the treatment of immigrants seeking 
asylum in the United States and the harsh laws guiding detention and 
deportation policies. The INS should consistently implement its policy 
of releasing asylum seekers who have established a credible fear of 
persecution and are not a danger to the community. I am working with 
Senator Leahy, Senator Robb and others on legislation to improve 
conditions of INS detention, and define the cases in which asylum 
seekers should be released from detention. All immigrants should be 
treated fairly. Whenever possible, immigrants subject to detention 
should be housed in facilities that are close to their families and 
communities, where they are more likely to find legal representation.
    The current detention policy is particularly harsh. It eliminates 
the discretion previously granted to INS and immigration judges, and 
changes the rules in the middle of the game for many immigrants. The 
categories of crimes that could result in deportation have been 
significantly expanded to include minor, non-violent offenses, where no 
sentence was served. Even U.S. war veterans have been detained and 
deported. There is no justification for measures that divide families, 
deny immigrants their day in court, and turn immigrants into second 
class citizens.
    I know the Attorney General is prepared to discuss these issues and 
many others--including civil rights enforcement and passage of the Hate 
Crimes Prevention Act--and I look forward to her testimony.

    Senator Kennedy. I would like to talk to you a little bit 
about what most families are concerned about in the country, 
and that is whether their children who are going to school 
today are going to be safe and secure, and also what is on the 
mind of probably a lot of children, about whether they are safe 
and secure in the schools that they are attending today.
    I think all of us certainly have thought about this. We 
have watched it and read about it, and seen the enormous 
emotion by the families who have suffered immeasurably in the 
most recent tragedy at Littleton, but also in the six previous 
tragedies as well. We are mindful that there are not any easy 
answers or easy solutions, but I do not think that should bar 
us from taking reasonable steps, particularly those steps that 
have demonstrated at least some opportunity for progress in 
some of the areas that really have been identified. We will 
have an opportunity in the Senate next week, by the assurances 
of the majority leader, to deal with some aspects in terms of 
the gun legislation, and hopefully, we might even have an 
opportunity to try and deal with some of the other aspects in 
the supplemental.
    We will be addressing the enormous needs that we have in 
terms of Kosovo and the importance of making sure that our 
armed forces are going to have the kinds of support that they 
need in terms of carrying the responsibility forward and 
protecting their lives, but we also have another crisis, I 
think, that is out there in the schools and in communities that 
need attention. A number of us are hopeful that we might be 
able to give some help and assistance to schools, to families, 
to teachers, to local law enforcement people, to personnel in 
the communities that might have some ability to have some 
impact in terms of trying to make schools safer communities.
    So, really, there are two areas that I want to inquire of 
you. I would just reference at the outset what has happened to 
Boston, and then I wanted to inquire of you about the important 
legislation that last year was developed with your leadership 
in the Justice Department, Secretary Riley and Donna Shalala in 
that Safe Schools Healthy Students Plan, which is a 
consolidation of a lot of the programs which are going to be 
available to communities. It is the basis of a lot of research, 
which I think offers some real kind of hope, and maybe we can 
get some focus and attention on that.
    First, as you are familiar, we have some 13 children every 
day in the country that die of gunshot wounds, and we have seen 
the most obvious example in Littleton.
    I was looking again back at my own City of Boston. Between 
1995 and 1998, homicides dropped by 64 percent. In 1998, there 
were 35 homicides in Boston, compared to 152 in 1990.
    This year, thus far, there have been four murders in 
Boston, which is down another 56 percent from this time last 
year, 64 percent in the previous years--56 percent from this 
time last year. During the period from July 1995 through 
December 1997, no juvenile in Boston was murdered by a gun.
    Last year, there were 16 murders, just general murders; 
this year, to date, zero. These are just extraordinary results, 
and I think we ought to try and see what we can learn. Boston 
is different from other communities, but there certainly seems 
to be a program or an approach there which has been very, very 
successful in trying to deal with the problems certainly in 
terms of youth violence.
    This is what they call the Boston Gun Project. I know now 
this program is trying to be replicated in a number of 
different communities across the country by the year 2003.
    We are going to hear Commissioner Evans make a very 
effective presentation tomorrow in a different committee, in 
our Human Resource Committee, where he is going to talk about 
tough law enforcement and engagement. He is going to talk about 
working with the schools, and he is going to also talk about 
tracking of weapons.
    I see that my time is almost up. I would appreciate it if 
you could comment about which gun control measures you feel are 
of the highest priorities, and also if you would comment on 
that program that was developed with your leadership in the 
Justice Department to help and assist schools. We would like to 
find out what we can learn from those that might be immediately 
applicable, trying to do something here and now.
    We will have to do things over the longer term, but maybe 
there are some steps that could be done now that could be 
helpful to families.
    Attorney General Reno. Let me talk about the long range and 
the short range within it. You have clearly put your finger on 
one of the important parts. If we are to focus on youth 
violence, we also have to focus on all violence so that people 
understand it is not acceptable, and that is the reason the 
Boston Project is important.
    We focused on violence. We let people know that they were 
going to be held accountable, but we let others know that they 
would be held accountable, but that there were alternatives. As 
I recall, John Hancock came in and provided programs that 
taught young people how to get jobs, how to hold jobs. The 
faith community came in the schools, the courts, the citizens. 
It was a remarkable effort.
    We have translated that effort into five communities in a 
strategic local planning project that focuses on the same 
thing, what are the organizations, who are the people that are 
committing these crimes, apprehend them, hold them accountable, 
let them know that there is a firm, fair sanction that fits the 
crime. Let the youngsters coming up know that they will be held 
accountable, but there are other routes for them to go.
    At the same time, there are different situations with 
respect to youth violence that we have got to focus on, and I 
just think it is important to realize that we cannot do a quick 
fix in high school. We can do so much in terms of adding 
counselors, but it is very difficult to grow up in this country 
today. We need conflict resolution programs and problem-solving 
programs in the schools.
    Senator my dream is that we teach every teacher how to 
teach their kids to resolve conflicts without knives and guns 
and fists. It is possible to do. That we have counselors in the 
schools who can identify kids who are on the verge of getting 
in trouble, that we have programs to say that we will not 
tolerate bullies and hassling and put-downs in schools. 
Everybody should be respected.
    School counselors can be a very effective force, and the 
Conference of Mayors has called for youth counselors in the 
schools of this country and the Federal assistance for this 
effort.
    Providing afternoon and evening programs that give young 
people a variety of things to do can make a significant 
difference, and that is what we are trying to do through the 
grant that you speak of.
    None of this is going to work if it is one piece here and 
not a look at the whole if it is just prevention or not 
punishment, if it is just a program for elementary school and 
not for high school, if you do everything right by the kid, but 
he cannot get a job or find something to do in the afternoon.
    We have got to really restitch the fabric of community 
around our kids and give them something to be positive about.
    I would finally like to take a few minutes to say I have 
had too many young people in the last year tell me why do 
people not like kids, and I say from my experience in these 
last couple of years that the young people of America are 
extraordinary. They are fine. They are wonderful. They are 
public-spirited. They want to contribute. They can be 
obstreperous, but they can be witty and funny and caring and 
dear, and we have got to do everything we can to support them.
    Senator Kennedy. Thank you very much.
    I see you have Mr. Jennings from Boston who is sitting 
behind you. He is the coach for the Boston Celtics. You have 
chosen wisely. We have a lot of respect for him.
    Attorney General Reno. He is my coach now.
    Senator Kennedy. Thank you.
    The Chairman. We want to welcome you, Mr. Jennings. You 
have got a number of big basketball fans here on this dais. So 
we are happy to have you here with us.
    Senator Leahy asked if we have a good team out in our 
State. Can you imagine? That is typical.
    Senator Specter.
    Senator Leahy. I am just trying to keep you humble.
    The Chairman. As you know, Senator Specter has my time 
deferred, but he is now in the order to be heard.
    Senator Specter. Thank you very much, again, Mr. Chairman 
for yielding me your time and now my time. I asked my 
colleague, Senator Grassley, if this sequence gave him any 
heartburn because we have been here since 1980. I do not want 
to give anybody any heartburn, but especially Senator Grassley.
    Senator Grassley. I even feel good that you are concerned 
about it.
    Senator Specter. I am concerned about it.
    Senator Smith. Do not ask down at this end.
    Senator Specter. I am concerned about Senator Kyl, Senator 
Sessions, and everybody, but let me make better use of the time 
than that repartee.
    Madam Attorney General, I have posed a number of questions, 
and I will defer to you suggestion on a closed session as to 
what is happening with the pending investigations and/or 
prosecutions as to Loral and Hughes and the other pending 
matters. I think there are some closed issues which are 
appropriate for public comment, which do not involve national 
security.
    There has been a closed plea bargain as to Johnny Chung. So 
I think that is a proper matter for congressional oversight.
    I did not have time to talk about Judge Real with respect 
to his comment of his ``surprise'' that Attorney General Janet 
Reno has not appointed a special counsel to investigate the 
Clinton Campaign fundraising maneuvers, but I would ask you 
specifically what action, if any, the Justice Department is 
taking or if it is an open matter, as Judge Real who sentenced 
Johnny Chung said, ``It is very strange that the giver pleads 
guilty and the givee gets off free,'' referring to Mr. Fowler 
and Mr. Sullivan.
    Are there ongoing investigations as to Fowler and Sullivan?
    Attorney General Reno. What I would suggest that we do, 
Senator, so that I make sure that I do not do anything that 
would inadvertently hurt the investigation, is respond to your 
questions in writing.
    Senator Specter. The plea bargain of Peter H. Lee resulted 
in probation and a fine and some community service. Peter Lee 
was one of those at Los Alamos where there were overtones, 
perhaps more than overtones, as to the espionage issue, and 
there was finally a guilty plea as to security breaches which 
could have carried a sentence of 5 years in prison.
    There was an issue as to reluctance to bring other charges 
because of confidential information from the Department of the 
Navy, but it seemed to me that given the circumstances of Los 
Alamos--and like you, Attorney General Reno, we were old-line 
district attorneys, you in Miami and me in Philadelphia--that 
sentence of probation and community service and a fine was not 
sufficient for what Peter H. Lee had done.
    I would be interested in your comment as to the propriety 
of that kind of a sentence on a plea bargain for something as 
serious as that which was involved there.
    Attorney General Reno. Let me respond in writing so I can 
make sure that my answer is complete.
    Senator Specter. OK; one of the difficulties with responses 
in writing is that we do not have a chance to really discuss 
it.
    Attorney General Reno. I will be happy to come over and 
discuss it with you to the extent that it is appropriate.
    Senator Specter. All right. I understand that a good many 
of these matters are specific, and I asked you about ones that 
are very well known like Chung which is a big case and also 
Peter H. Lee which is a big case, but let me come back to a 
written response which I have had from you.
    The Governmental Affairs Committee is considering what to 
do about independent counsel, and this will be the fourth 
hearing where I have asked you the question about the expansion 
of the jurisdiction of Independent Counsel Kenneth Starr to 
move into the Monica Lewinsky incident.
    I asked you about it in an oversight hearing about a year 
ago. You told me that the application spoke for itself, and 
there is never enough time. Then I asked you about it at a 
Budget hearing here, a few weeks ago, and you said you would 
study it and get back to me. I asked you about it in general at 
Governmental Affairs more recently, and I did get an answer 
yesterday, not from you, which surprised me a little bit 
because we had had so much discussion about it. I understand 
the need to function through assistants, but this is a matter 
which I had looked for your personal views on.
    Acting Assistant Attorney General Jennings wrote to me as 
follows. The issue as to Judge Starr's expanded jurisdiction 
involved his having been at the investigation of President 
Clinton for about 4 years with Whitewater and the Filegate and 
Travelgate and so many, many other matters, and the concern 
which I expressed contemporaneously in January 1998 that the 
public would misunderstand and think that there was as vendetta 
when he was expanding his jurisdiction, and there were media 
calls for speeding up his investigation.
    The application which you had filed said just this, the 
parts of two pages to the appointing court asking for expansion 
of jurisdiction. ``It would be appropriate for Independent 
Counsel Starr to handle this matter because he is currently 
investigating similar allegations involving possible efforts to 
influence witnesses in his own investigation. Some potential 
subjects and witnesses in this matter overlap with those in his 
ongoing investigation.''
    As I said to you the last time we talked about it--you used 
the plural here, ``witnesses,'' ``subjects,'' and ``witnesses'' 
again, and to the best of my knowledge, the only one we had was 
Webster Hubbell who was offered a job arranged by the same 
lawyer for the same company out of the city.
    To say that that application speaks for itself, I think it 
is simply not accurate, but this is the letter I got yesterday 
from Mr. Jennings, your Acting Assistant Attorney General for 
Legislative Affairs, ``Upon reflection, the Attorney General 
has determined that given the particular circumstances of this 
matter, any further matter by her at this time beyond the 
explanation provided in her public application to the Special 
Division for expansion of the jurisdiction of an independent 
counsel would be inappropriate. In addition to Mr. Staff's 
pending litigation, these circumstances include the fact that 
the events leading to the Attorney General's decision to 
recommend that Mr. Starr's jurisdiction be expanded to include 
the Lewinsky matter are under review by the Department of 
Justice.''
    We have had with frequency your deferring answers to a 
closed session or to writing, but I have to tell you candidly, 
Madam Attorney General, that I consider that response not only 
totally insufficient, but really bordering on insulting, to 
come back in the context of how many times we have raised this 
question and the importance to pending litigation we are trying 
to decide now, the Senate Governmental Affairs Committee, 
whether we ought to continue independent counsel. A big issue 
has been Judge Starr's excesses--that is the allegation, I am 
not saying that they were--and his investigation of Lewinsky, 
and we want to know why the Attorney General took the 
initiative to expand his jurisdiction. This is an important 
pending matter for consideration by Congress.
    You have not said, ``Well, I will come in and talk to you 
privately or a closed session.'' You just say it is 
inappropriate.
    I think it is important for us to know, so we can decide 
what to do with the Independent Counsel Statute. This is not to 
assess blame for the past, but to try to figure out where we go 
from here. Why did you ask the court to expand its 
jurisdiction, given all of the problems here, Madam Attorney 
General?
    Attorney General Reno. First of all, Senator, I would not 
do anything that would even insinuate disrespect for you, and I 
apologize to you if you feel like it was insulting because it 
certainly was not, but you have put your finger on one of the 
most difficult issues that I face, and that is how I exercise 
my responsibility under the Independent Counsel Act without 
interfering with the independence of the independent counsel.
    There is a matter in trial now. There is a matter under 
review now. I am happy to talk with you and the chairman about 
how we might properly address this because it does go to the 
independence of it. I have not dragged this along. I have tried 
to see where we stood and whether it would be appropriate at 
some point for me to comment, and I will be happy to explore 
that with you, but I have got to make sure.
    And I will tell you, since you have never been, I do not 
think, on the other end, it is easy to be a prosecutor in 
Philadelphia and it is easy to be a prosecutor in Miami.
    Senator Specter. I do not remember that.
    Attorney General Reno. It is much more difficult to be a 
prosecutor in Washington and acknowledge and honor Congress' 
oversight responsibilities, while at the same time trying to do 
what you are supposed to be doing under the law, and I will try 
my level best to do both to your satisfaction.
    Senator Specter. My final statement, Madam Attorney 
General, is I know you have got a very difficult job, and I 
think you have done a good job over a very long period of time. 
Our relationship goes back more than a decade, 1985, when I 
came to Miami trying to move on career criminal prosecutors, 
the statute that we had passed just the year before. So I have 
watched you as a district attorney, and I will not prolong the 
discussion. I think it is as tough to be district attorney of 
Miami as it is to be anything, almost as tough to be district 
attorney of Philadelphia.
    One of the problems about doing all of this----
    Attorney General Reno. But you did not do oversight, I 
mean, when you came to Miami.
    Senator Specter. Did not need to. Your job was so good. 
Nobody needed to do any oversight.
    The final point is that when we do it in closed session, we 
do it by letter. The public does not really know what we are 
doing. It is a prodigious, prodigious job to pursue this issue, 
Madam Attorney General, through four hearings, and then we are 
going to have a meeting, but I have an instinct that you and I 
will meet again publicly and we may talk about it again 
publicly.
    Attorney General Reno. What I have said from the very 
beginning is that to the extent that I can under Federal law, 
with Privacy Act considerations and everything else--and 
forgive me, Mr. Chairman, but I want to take my time on this 
one--in Florida, we had a public records law, a sunshine law. 
Everything became open when the matter was concluded. I had 
closeout memoranda that were made available. So people knew 
where I stood, and I always said I cannot comment during the 
pendency of the investigation, but I can comment afterwards as 
long as there is no other intelligence that will lead to 
further subjects.
    I am prepared to do that again, to the extent that I can 
under Federal law, consistent with 6(e) and every other Federal 
limitation, and I would anticipate and would appreciate the 
opportunity to have another public discussion with you at the 
appropriate time.
    Senator Specter. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Feinstein, we will turn to you.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    It is great to see you again, Madam Attorney General, and I 
want to welcome you to the committee. I would like to talk 
about essentially three things. The first is the assault 
weapons. The second is children learning to make bombs from the 
Internet, and the third is the Immigration and Naturalization 
Service and some growing concerns that I have, specifically the 
public charge issue.
    You were very helpful in 1993 when I wrote the assault 
weapons legislation, and the Department of Justice and you in 
particular were very supportive. I am very, very grateful for 
that.
    As you know, it is very controversial legislation, and 
there are loopholes. If I had my druthers, I would ban 
possession of assault weapons. I see no reason for them to be 
anywhere on the streets, and particularly in our schools in 
America, but very shortly, I hope to introduce legislation with 
a number of cosponsors to close a significant loophole which is 
the importation of big clips coming from other countries.
    If you will recall, we tried to get the President to do 
this by executive order. Your Department held that he could 
not; that it would take legislation to close this loophole.
    As you will also recall, it is now illegal to manufacture, 
sell, or possess a clip drum or strip of more than 10 bullets, 
subsequent to the passage of the legislation in 1994.
    The loophole is allowing the foreign importation. We would 
like to close that loophole and strengthen the law with respect 
to prohibiting possession of assault weapons by juveniles.
    I would like to ask if you would take a look at this 
legislation in the next few days, and hopefully, you will be 
able to support it.
    Attorney General Reno. I think we will, and we will 
certainly look at it because I believe it is part of the 
President's package.
    Senator Feinstein. That is correct. It is actually 
combining two things into one----
    Attorney General Reno. Two points.
    Senator Feinstein [continuing]. And trying to strengthen 
it. So I would appreciate that very much.
    For some years now, I have been concerned about the 
availability of bombmaking information on the Internet. Let me 
be very clear. For the information that I am concerned about, 
there is no legal use. There is only an illegal use, and we 
have had this bombmaking prohibition in bills for 3 or 4 years 
now. They are always removed surreptitiously in conference.
    Since Littleton, in just a few weeks, there have been seven 
incidents of youth using bomb instructions from the Internet to 
build bombs, and at Salt Lake City; Cobb County, GA; Wimberly, 
TX; Brooklyn, NY, six of the seven incidents, these youngsters 
brought these bombs to schools.
    Senator Biden and now Senator Hatch have been in support of 
this legislation, and you conducted a thorough study pursuant 
to the Antiterrorism and Effective Death Penalty Act in 1996, 
and in that study, you recommended the adoption of my 
legislation. However, you also recommended that the state of 
mind required to be proven be heightened from ``knowing'' to 
either ``intends'' or knows that the person receiving the 
information intends to use it to commit a crime.
    I am concerned now that this is too difficult a standard to 
ever really prove a case, and in light of what is now becoming 
a widespread use of this information to actually build bombs, 
and the recent decision by the fourth circuit. I want to just 
quickly read to you part of that fourth circuit decision, ``In 
the case of Rice v. Pallidin Enterprises, which ruled that a 
publisher of one of these so-called mayhem manuals could be 
held civilly liable to relatives of a victim who was murdered 
by a criminal following the instructions contained therein.'' 
The court extensively cited and relied on the Justice 
Department study on my amendment, noting, that the exhaustive 
legal analysis set forth in that report and stating that the 
decision we reach today follows from the principal conclusion 
reached by the Attorney General and the Department in that 
report, the court concludes, we are confident that the first 
amendment poses no bar to the imposition of civil or criminal 
liability for speech acts which the plaintiff or the 
prosecution can establish were undertaken with specific, if not 
criminal, intent.
    The court then quotes from the Justice Department report,

          The Government may punish publication of dangerous 
        and structural information where that publication is 
        motivated by a desire to facilitate the unlawful 
        conduct as to which the instructions inform or, at the 
        very least, publication with such improper intent 
        should not be constitutionally protected where it is 
        foreseeable that the publication will be used for 
        criminal purposes.

    What I am essentially asking that you look at or respond 
to, do you think we can safely restore the standard to 
``knowing'' and still survive scrutiny under the first 
amendment?
    Attorney General Reno. Let us take a look at it, Senator, 
and we will do so immediately and get back to you very quickly 
because it is the subject of everybody's concern.
    Senator Feinstein. Right, and particularly that fourth 
circuit opinion.
    Attorney General Reno. I have made the notes.
    Senator Feinstein. I believe now that all of this material 
only has a criminal implication. There is no legal purpose for 
a light bulb bomb, a book bomb, a pipe bomb, a letter bomb, any 
of these things, and when these manuals tell you how to break 
into labs, how to assemble the materials, how with specificity 
to craft any illegal instrument which can only be used 
illegally, what I am hopeful is that now that there is broad, 
wide knowledge, that knowledge alone can be the test.
    Attorney General Reno. Let us check and get back to you.
    Senator Feinstein. I would appreciate that very much.
    I will go to INS for a moment. You might be aware that the 
ambiguity of the public charge definition issue has caused much 
confusion within immigrant communities. People are essentially 
foregoing essential healthcare because they wrongly believe 
that their participation in Government-run health programs will 
jeopardize their immigration status or the status of family 
members in the United States.
    Recently, we have had a death in Orange County of an infant 
who died after receiving an injection in the back room of a 
local gift shop, and all throughout my State, these illegal 
nonmedical treatment facilities are setting up to deal with the 
problem.
    In California alone, 1.7 million children go without health 
insurance, despite the existence of a Federal program that 
offers low-cost medical care, and in some areas of Los Angeles, 
only 30 percent of preschool youngsters have been immunized.
    I was just in Orange County at a center. 37,000 youngsters 
have no immunization at all because they are afraid to 
register, that their immigration status will be jeopardized.
    I have been writing for 3\1/2\ months now to INS, and I do 
not get a satisfactory response. What I am asking for is a 
clear regulation, if possible. If not, I am prepared to 
introduce legislation, but a clear regulation that would exempt 
immunizations, public healthcare, public health-related 
healthcare, and critical healthcare from any public charge 
aspect.
    Are we going to be able to get it as a specific regulation, 
or do we need to introduce legislation? That is my question.
    Attorney General Reno. The INS is currently engaged in 
discussions on an interagency basis to develop an 
administrationwide approach to the public charge issues.
    We will embody it in field guidance and possibly the 
regulation, but we at this point are in conversation with the 
Department of Health and Human Services and Agriculture because 
they have issues that directly relate to this. We are trying to 
move it as fast as we can. At the conclusion of the interagency 
process, we will be issuing the guidance. I think it should 
address the issues, such as vaccination. We want to consult 
with Members of Congress and make sure that we do this right 
and that we do it with all deliberate speed because I know how 
important it is.
    Senator Feinstein. As I told the White House yesterday, who 
called urging me to be patient, I have run out of patience. I 
have really tried to be nice. I have tried to write letters. 
Then entire California delegation has signed letters, and I 
really think it is important, Madam Attorney General. People 
are dying, and we are going to have a major public health 
contagion problem in California unless we get this cleared up.
    Attorney General Reno. Let me make a suggestion. Just keep 
on being nice and as determined as you usually are and adamant 
and----
    Senator Feinstein. You know, that will get me a box of Mars 
bars.
    Attorney General Reno. No, no, no.
    Senator Feinstein. Two tickets to next week's elections.
    Attorney General Reno. One of the things that I have 
discovered about you, you are probably the most tenacious 
person when you get a subject. So just keep at it----
    Senator Feinstein. All right.
    Attorney General Reno [continuing]. And I will let you know 
exactly where we stand because you are absolutely right.
    The Chairman. She gets almost everything she wants on this 
committee.
    Senator Feinstein. That will be the day.
    The Chairman. Well, you do pretty well, really.
    Senator Grassley.
    Senator Grassley. General Reno, I have some issues that I 
want to bring up that are things that have been ongoing between 
me and your Department, and it is more or less to get some 
updates from you.
    Not long ago, you were gracious enough to meet with me and 
a number of other Senators from agricultural States regarding 
our concern with agribusiness concentration. You indicated that 
you would consider our concerns carefully, and I have no doubt 
that you will, and that you would let us know if you saw any 
problems.
    Have there been any developments since that meeting?
    Attorney General Reno. Yes; I follow this very carefully 
now. I have an 8:30 morning meeting at which I go over my 
checklist of things that are really critical, and ``pork'' and 
``beef'' are the shorthands for the issues. And you all made 
clear, the Senators made clear, what an impact this has had. I 
can assure you that we take the concerns very seriously.
    As I told you in the meeting, the Assistant Attorney 
General for the Antitrust Division, Joel Klein, had determined 
that he would go to--he went to Minnesota, met with farmers in 
a public forum. It was attended by hundreds of farmers. He 
heard their concerns personally.
    The Antitrust Division has met and is continuing to meet 
with various producer groups to discuss their concerns. On each 
such occasion, we have invited farmers to provide us with 
specific facts and circumstances pertaining to situations that 
might be antitrust violations. We have a number of attorneys 
and economists looking into the concerns the farmers have 
expressed.
    In certain areas, such as increasing concentration 
resulting from mergers and price-fixing of goods that farmers 
purchase, the Antitrust Division has brought enforcement 
actions.
    Senator Grassley. You say they have brought some----
    Attorney General Reno. Enforcement actions.
    Senator Grassley [continuing]. They are thinking about 
doing it?
    Attorney General Reno. No; this is in certain areas, such 
as increasing concentration resulting from mergers and price-
fixing of goods that farmers purchase. The Division has brought 
enforcement actions, those, for example, requiring divestiture 
in the Monsanto/DeKalb biotechnology seeds merger, and the 
criminal case of ADM; others for price-fixing of lysine and 
livestock feed. It has a number of pending investigations.
    In other areas, we are gathering information and working 
directly with the U.S. Department of Agriculture in order to 
ascertain whether enforcement action by either Antitrust or 
USDA is warranted. We are pursuing this. It is something that I 
am personally following carefully, and we will do everything 
that we can under the law.
    Senator Grassley. OK; at that same meeting--and this would 
be a followup of just what you said--at that meeting, we asked 
you to consider whether or not, if the Department of Justice 
did not have authority to take action--and you are showing 
where you do have authority to take action, but that if there 
were some other areas where there were problems that we needed 
to deal with, if you didn't have the authority to do that that 
you would let us know.
    You also indicated that that could mean providing us with--
in fact, we asked for legislative suggestions, if that was 
necessary, if you determined that these legislative changes 
were necessary to help you do your job more effectively. A 
review of existing antitrust law, then, a status of that review 
that you promised us, if there might be any changes in law 
needed?
    Attorney General Reno. I have not been advised that there 
are any changes needed yet, but I want to assure you that we 
will continue to review it as we develop facts and understand 
better what we can and can't do based on the factual situation 
that we are able to develop.
    Senator Grassley. I wonder if you would ask your antitrust 
people, if there is anything to supplement what you have said, 
if they would give my staff a phone call, because if there is 
legislative language needed, or even a thought now that there 
might be some, we need to be alerted to that so that we don't 
lose a whole year.
    Attorney General Reno. And, again, since it is a pending 
matter, I can't assure that I can take specific action, but I 
can assure you that I am following it very closely. And both 
with respect to what we can do and with respect to the 
legislation, we will follow through.
    Senator Grassley. My last comment wasn't in regard to 
action you can take under existing law. It would only be in 
regard to a briefing for me if you think there might be some 
legislative changes made even if you haven't made your final 
determination.
    Attorney General Reno. I will talk with Joel Klein as soon 
as I return to the office.
    Senator Grassley. And then I wrote a letter to Assistant 
Attorney General Klein about visiting my State of Iowa, like he 
did a very successful visit to Minnesota, and I got a response 
back that it is still on their radar screen and they haven't 
made a decision to do it or not to do it. I guess I would ask 
that you put in a word of support of that letter if you would, 
please.
    Attorney General Reno. Yes, sir, I shall.
    Senator Grassley. If I can move on to airline pricing, 
please, I would like to know what progress the Antitrust 
Division has accomplished in looking into predatory pricing 
allegations and other possible antitrust violations by 
airlines. In response to my written questions at the last DOJ 
oversight hearing, you indicated that the Antitrust Division 
was close to bringing certain aspects of its investigation to a 
conclusion.
    Could you give me an update, and do you see the Department 
of Justice needing to take further action?
    Attorney General Reno. My understanding is that our 
preliminary review did not suggest predatory behavior, but we 
are aware of the situation and will follow it closely. And what 
I will do, Senator, is call Mr. Klein when I get back and find 
out exactly what that means.
    Senator Grassley. Also, you are probably aware of it, and I 
should have included in my question, but some predatory pricing 
situations are in the domain of the Department of 
Transportation as well. And so I need to follow through with 
them, and there may be some contact between your office and 
them.
    My last question, now that the yellow light has come on, 
would deal with Federal law enforcement resources in our State, 
specifically the FBI. The Omaha field office of the FBI, which 
covers both Iowa and Nebraska, is slated to lose five full-time 
agent positions through attrition. The Omaha field office has 
already lost three of five positions.
    I asked you about the issue earlier at our previous 
hearings. Late last night, I received a response indicating 
that the Omaha field office is being downsized, but that the 
special agent-in-charge there has requested more personnel and 
that the request is being considered.
    Now, what is so puzzling about the personnel reduction is 
that bank robberies in the Iowa-Nebraska area have increased 
very dramatically in the last few years. Doubling the amount of 
bank robberies in the area of the Omaha field office, they 
would have gone from 61 in 1997 to 120 in 1998. The lead 
Federal agency which investigates bank robberies, of course, is 
the FBI. So we are reducing the FBI presence in Iowa, while at 
the same time we are seeing a doubling of bank robberies. This 
doesn't strike me as a wise way to allocate law enforcement 
resources.
    So, first, I would like to ask what is the status of the 
request from the Omaha office of additional personnel. On the 
one hand, we are told it is being reduced. On the other hand, 
the special agent-in-charge has requested more personnel and is 
being told that the request is being considered.
    Second, I would want to appeal to you to grant this request 
of the agent-in-charge because with so many bank robberies, I 
think we need more, not less, in the way of law enforcement 
resources in the Midwest.
    Attorney General Reno. First of all, as I understand it, 
during the operating year, FBI headquarters does make 
adjustments to field staffing levels based upon emerging crime 
problems and significant investigations that develop subsequent 
to the setting of staff levels. The special agent-in-charge for 
the Omaha field office has submitted a request for additional 
staffing and that request, along with requests from a number of 
other FBI field offices, is now being considered.
    Let me give you a larger picture, and at some point, Mr. 
Chairman, it might be well for us to share with you just our 
methodology so that you understand what we are trying to do.
    I am trying to develop some long-range staffing planning so 
that when I add FBI agents in one jurisdiction, I make sure 
that there are prosecutors that can handle the cases that the 
agents make, and that there are marshals that can handle the 
offenders that are taken into custody, and that we have a 
seamless system that is appropriately balanced. We are engaged 
in that effort.
    There are some historical inequities that have to be 
adjusted as we look at this, but it is something that is very 
important to me because I want to make sure that we have 
staffing levels that can respond to emerging crime problems, 
respond to population increases, respond to particular skills 
that are needed in particular areas. And I will check with 
Director Freeh and ask him to advise you as soon as any 
appropriate decision is made.
    Senator Grassley. Thank you. Thank you very much.
    The Chairman. General, I have been sitting here worrying 
about when we can hold this closed hearing. I think what I 
would like to do is have a closed staff briefing this week, if 
we could, before Friday, or Friday if you want. And then we 
will consult with the ranking member and with you and see when 
we can hold this closed hearing, which I think we are going to 
have to hold.
    So could you have the staff prepared to brief our staff?
    Attorney General Reno. OK, and you will make sure your 
staff has the appropriate clearances?
    The Chairman. No question about it, we will have to do 
that, OK?
    Attorney General Reno. That would be fine.
    The Chairman. So if we could do that before Friday, I would 
appreciate it, and then we will try and work out when we can 
have the closed hearing. I think it is important that we answer 
some of these questions.
    Senator Feingold, we will turn to you.
    Senator Feingold. Thank you, Mr. Chairman, and welcome, 
General Reno. One of the benefits of waiting a while to speak 
is you get the benefit of the wisdom of the more senior 
members, and in this case I do want to just reinforce two 
different issues that were brought up earlier.
    The first one is the questions that Senator Grassley just 
asked that are critical with regard to agricultural 
concentration. I also attended with quite a number of Senators 
from both parties the very good meeting we had with you. I want 
to thank you for what was done in Minnesota, and hope serious 
consideration will be given to Senator Grassley's request for a 
hearing in Iowa. And, frankly, because of my concerns about 
concentration in the dairy industry, at some point it would be 
very helpful to have some opportunity to convey those concerns 
and have the people convey those concerns in Wisconsin.
    But I also want to reiterate what Senator Grassley was 
asking. I think it was very clear, but I just want to second 
it. We stand ready here, some of us on this committee, on a 
bipartisan basis and in the Senate to propose legislation with 
regard to antitrust or other laws if there are gaps. And we 
need to know soon, as Senator Grassley clearly said, so that if 
something needs to be done, it can be actually accomplished in 
this Congress. And so let me just put that as high on your 
radar screen as we can, given the crisis that we have in rural 
America.
    The second point I want to mention before I get to my main 
question is to reiterate Senator Kennedy's reference to the 
work that Bill Lann Lee is doing and the importance of his 
confirmation. I had a wonderful meeting with him yesterday 
where he outlined for me four or five areas that he has 
emphasized, and I am very impressed and pleased with the 
initiatives that he has taken in the civil rights area and am 
hoping that we can move that nomination along as well.
    General Reno, I want to shift gears now and just speak a 
bit about a problem that is getting a lot more attention in the 
country and in this committee and in the Congress, and you 
actually referred to it in your remarks and so did Senator 
Kennedy. That is the practice of racial profiling by certain 
law enforcement agencies in traffic stops.
    As you know, there have been a number of studies and 
numerous anecdotal reports that the police in some places stop 
African Americans and members of other minority groups for 
alleged minor traffic violations more frequently than they stop 
white drivers. This has led a new term to come into our 
national vocabulary, particularly in our minority communities, 
to describe the offense for which many African Americans are 
stopped and it is called ``driving while black.'' I have had 
Hispanic constituents of mine refer to the concept of ``driving 
while Hispanic.''
    Now, I think the fact that this term has even come into 
existence is a disgrace. It is a shame that law enforcement 
officers are even suspected by some Americans of enforcing our 
laws in a discriminatory way. Whether it is actually a 
significant problem or not, the suspicion is there and we have 
a responsibility to address it.
    So I have introduced a bill in the Senate, Senate bill 821, 
The Traffic Stop Statistics Study Act, along with Senator 
Lautenberg of New Jersey--and I believe Senator Torricelli is 
also a cosponsor, and Senator Kennedy--to require the 
Department of Justice to do a nationwide study of traffic stops 
to give us the factual basis for addressing this racial 
profiling issue.
    Racial profiling has no place in our law enforcement 
practices. All Americans must be free to travel our Nation's 
highways without fear of harassment by the Government. The 
stereotyping of African-Americans and other minorities as more 
likely to be involved in drug trafficking or other criminal 
activity is an insult to law-abiding citizens all over this 
country of every race. People should be judged, as Martin 
Luther King said, by the content of their character, not by the 
color of their skin.
    And so I would like to know what steps the Department is 
taking to address this problem, which I think you would agree 
is getting a lot of attention, and what is your position on the 
legislation that I and Senator Torricelli and others have 
cosponsored in the Senate. As you well know, there is a House 
bill on this that I believe actually got through the House last 
year, led by Representatives Conyers and Menendez, that I 
believe is identical to the one that we have introduced in the 
Senate. I would be curious about what is being done and what 
your Department's position is on the legislation.
    Attorney General Reno. We take the matter very seriously 
because we share your concern and your feelings about it. 
Racial profiling, a focus on conduct based on race or ethnic 
background, is just plain wrong. And for that reason, the 
Department has been involved in several investigations 
concerning traffic stops and searches by law enforcement 
officers, including in New Jersey, and these investigations are 
ongoing.
    At the same time, the Department sponsored a 2-day problem-
solving meeting on law enforcement stops and searches. This was 
last December. It was attended by police chiefs, State police 
directors, civil rights leaders, national police organization 
representatives, and Federal law enforcement officers. And we 
are using the results of that meeting to try and develop best 
practices that can assist local law enforcement and State 
police in addressing this issue.
    Our findings have been people don't want it to happen. 
Police administrators don't want it to happen, and we have got 
to take steps to make sure that there are standards in place so 
that people know what to expect, what they should do and not 
do, and we are pursuing that as vigorously as we can.
    Senator Feingold. General Reno, I also asked about the 
legislation. We would very much like your----
    Attorney General Reno. I have not had a chance to review 
your legislation. Let us take a look at it and get back to you 
quickly on it.
    Senator Feingold. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    We will now turn to Senator Sessions. Then we will go to 
Senator Torricelli, Senator Kyl, and then Senator Smith.
    Senator Sessions. Thank you, Mr. Chairman.
    General Reno, with regard to the juvenile crime rate, there 
have been some good numbers that we can be thankful for, but 
overall the trend is not a healthy trend. I know some have said 
that crimes rates are down. From 1993 through 1997, there was 
an overall increase, according to the FBI statistics, of 14 
percent in crime by those under 18.
    I noticed you said that juvenile violent crime rates were 
down, and I think this is true, considering murder and rape and 
aggravated assault. But simple assault is up, as the numbers I 
have show, by 17 percent. So I guess the answer is, as you well 
know and we both know, we have got a very serious juvenile 
crime problem and we ought not to be too optimistic about some 
good trends in the last year or two. Would you agree with that?
    Attorney General Reno. That is exactly what I have said in 
my opening statement.
    Senator Sessions. Very good. I missed that statement.
    Attorney General Reno. But I would point out to you that we 
don't have to be controlled by the demographics because the 
number of young people is increasing dramatically over these 
last 5 years and in the next 5 years to come. It is important 
that we take steps.
    It used to be people never paid any attention to assaults, 
simple assaults. They told the kid to go home. I think people 
realize that it is important that when we see violence even in 
small terms that we take effective, thoughtful steps to 
intervene to say we won't tolerate it.
    Senator Sessions. I agree with that, and I do believe that 
one thing that is failing us--and I think the core of Senator 
Hatch and I--the bill that we hope you will be able to support 
enthusiastically is to strengthen our juvenile court systems so 
they can intervene effectively at those first assaults that 
later turn out to be a stabbing or a shooting when the fights 
continue or the child gets away with it. So I hope that you 
will work with us on that and that we can make some significant 
progress toward improving our juvenile justice system.
    To me, we are confusing what we talk about prevention and 
law enforcement. In many ways, they are the same. If a judge 
has the opportunity to drug-monitor a youngster who is using 
drugs, who has alternative punishments in schools and boot 
camps or other discipline he can apply, that strengthens his 
ability to intervene and change a child's life.
    Do you agree that the court system itself, properly managed 
by effective judges who have a myriad of options for sentencing 
and discipline, in effect, can prevent further crime?
    Attorney General Reno. Certainly, they can. And do you know 
the first place to start? Since there is such a direct 
correlation between kids who are abused as infants and small 
children and subsequent abuse by them in subsequent violation 
of the law, let's start with model children's courts that make 
sure we have enough programs in place for those abused and 
neglected children to interrupt the cycle of violence and make 
sure they get off to the right start.
    Senator Sessions. I agree, and I think the foster parents 
program can be improved. It has some good things, but can be 
improved. But I am not sure that the afterschool programs and 
those kinds of programs are part of a criminal justice 
judiciary bill. That would be more part of a health bill or an 
education bill, and that is the only thing I would say to you, 
that we can't put everything in this bill when we try to 
improve juvenile justice.
    Attorney General Reno. If we can't put everything in this 
bill, let us do something, then, that the Departments of Health 
and Human Services, Education, and Justice have done, which is 
come together with the other committees, come up with something 
that provides a comprehensive approach so that no piece is left 
out because of the difference in jurisdictions. I think we can 
do so much in this regard.
    Senator Sessions. Well, I think we could, but this bill is 
a good step, and I hope that you will support it. It may not 
deal with preschool, afterschool programs, and other things 
that some would like to see, but they ought to be as a result 
of hearings in committees. Don't you agree?
    Attorney General Reno. Well, I think there have been more 
than enough hearings on it, and I will use my bargaining chip 
with you to make sure that we get either in this committee or 
some other committee an appropriate balance between prevention 
and the courts. I really think we can do it.
    Senator Sessions. A good court system prevents crime, and 
if we disagree, we disagree on that.
    Attorney General Reno. It is a lot less expensive to keep 
them out of trouble in the first place.
    Senator Sessions. Well, it is, but considering all of the 
shootings that we have had, even those where juveniles had some 
criminal record, perhaps had the juvenile system not been so 
overloaded and so overburdened, there would have been more 
probation officers, or the judge could have given more time to 
it and perhaps the family could have been involved and those 
kids may not have gone on.
    Attorney General Reno. I couldn't agree more.
    Senator Sessions. Well, we want to help that, and this bill 
will really strengthen that option.
    With regard to guns, there has been a 40-percent decline in 
the prosecution of gun cases by this Department of Justice. I 
have raised it with you really, I guess, for 2 years, and Mr. 
Holder also. The reason it concerned me is because I was aware 
of the program President Bush pushed to enhance prosecutions of 
criminals with guns.
    And then I was most pleased to see that a U.S. attorney in 
Richmond was carrying on that same project, called Project 
Triggerlock, and even enhanced it and called it Project Exile. 
And it was not being favorably considered throughout the 
Department of Justice. We set a hearing on it, and the Saturday 
before our Monday hearing, the President himself praised that 
Project Exile, and in his statement to the American people 
directed that you study how to replicate that because they had 
obtained a 40-percent reduction in violent crime as a result of 
this project. I believe it will work.
    Have you followed the President's directive?
    Attorney General Reno. We have done that, and let me 
explain where we are at. I don't know whether you heard Senator 
Kennedy discussing what we have done in Boston. In Boston, the 
laws apparently were somewhat different because the laws in 
Virginia up until recently did not provide for as an effective 
effort against illegal possession of certain guns.
    What we are doing is forming a partnership with State and 
local authorities. When the State and local authorities want to 
do it, when they can do it, they should be doing it. That is, I 
think, consistent with principles of federalism. Where, because 
their laws are inadequate or for other reasons, they can't, 
then we should be working with them to do it. But we should do 
it recognizing that each community and each district in America 
is different. There is no cookie-cutter approach, but there 
should be one common understanding. People who illegally use 
guns should know that they face the consequences.
    Senator Sessions. Well, we do know--and my time is up--that 
prosecutions are down substantially. I believe this project 
will work. And I understand--correct me if I am wrong--that 
your commission to study the President's directive is not going 
to report back until 2001, or start the program until 2001.
    Attorney General Reno. Start what program?
    Senator Sessions. Well, let me read you what the President 
said. Did you get that directive? He said he was directing that 
you do a report and a study.
    Attorney General Reno. What we have done is institute 
Project Exile in Richmond. We have also done a study, which at 
this point is inconclusive as to what portion of the 
initiatives in Richmond have been responsible for what 
reduction. And we are trying to make sure that we come up with 
solid facts that can properly inform Congress, the President, 
and everybody else.
    Senator Sessions. Well, the President said this. He is 
directing that Treasury Secretary Robert Rubin and Attorney 
General Reno to use every available tool to increase the 
prosecution of gun criminals--and I say amen--and to ``report 
back to me with a plan to reduce gun violence by applying 
proven local strategies to fight gun crime nationwide, and to 
hire more Federal prosecutors and ATF agents so we can 
crackdown on even more gun criminals.''
    Are you doing that?
    Attorney General Reno. As I indicated to you earlier, what 
we are doing is working with State and local authorities to 
make sure that every gun case is properly prosecuted. We had 
been doing that in Boston well before the situation with 
Richmond arose, and we are trying to fashion it so that we work 
as a partner with State and local authorities.
    If the local authorities have the capacity and the law to 
do it, then they will do it. But we want to make sure that we 
use our resources in the wisest way possible. And, yes, I think 
we are doing it.
    Senator Sessions. Well, the President said for you to 
report back, and I hope that you will.
    Attorney General Reno. I have been talking to him.
    Senator Sessions. The indication from your answer is that 
you are not committed to proposing a replication of the 
Richmond Exile Project to other U.S. attorneys offices. You are 
hesitant to do that----
    Attorney General Reno. No, I am not hesitant----
    Senator Sessions [continuing]. Even though it had a 
dramatic reduction in violent crime in Richmond.
    Attorney General Reno. Well, let's look at it. We have 
evaluated it, and what we have seen--I don't know whether you 
heard Senator Kennedy, but he gave a really good description of 
what has happened in Boston.
    Senator Sessions. I like the Boston project.
    Attorney General Reno. Now, I wouldn't want to change 
Boston and say you have to do it this way. I want communities 
working with the Federal Government in partnership rather than 
the Federal Government coming down and saying, you do this and 
you do that and you do the other. If Boston can do it, then we 
should work with them to see that they do it.
    I have been talking with the President. I recommend Exile 
when it is appropriate, I recommend other programs when they 
are appropriate. But one of the things, Senator--the 
communities of America have a lot of sense of innovation and 
creativity, and the Federal Government shouldn't be telling 
them what to do when we can together do it better than this 
one-way street that has too often existed.
    And the prosecution by the Federal Government of small gun 
cases that can better be handled by the State court, without 
the Federal Government pursuing the organizations that we have 
pursued, doesn't make such good sense. So we are trying to work 
together, and if you have any community where you think we 
should be doing something more, call me.
    Senator Sessions. Mr. Chairman, the local communities 
respond positively, as the chief of police in Richmond did, to 
an aggressive Federal presence. It should be a partnership; 
obviously, it should be. But this Department is not committed 
to it, and I can tell from the Attorney General she is not 
going to move those numbers. And I think it is really a 
failure. I think this Department is not effectively enforcing 
the gun laws.
    The President continues to ask for more gun laws. We had a 
school-ground gun law passed and there have been less than 10 
prosecutions out of that. There are less than 10 under the 
assault weapons ban, less than 10 under selling a weapon to a 
minor. And we want more laws, but what we need is more 
prosecutions.
    Attorney General Reno. Well, let me suggest to you 
something again because we should be very clear about what we 
are talking about. State prosecutions of weapons offenders have 
increased sharply. In other words, combined Federal and State 
prosecutions for gun crimes have increased since 1992. In 
addition, Federal prosecutions for major violent organizations 
have increased. I think we are on the same track, Senator. I 
don't think we are disagreeing, but if you have a case where 
you think there is a problem, you let me know and let me pursue 
it.
    Senator Sessions. Mr. Chairman, thank you. I have gone past 
my time. I feel strongly about this, and obviously we don't 
agree. Thank you.
    Attorney General Reno. Well, what I would like to know is 
if there are State prosecutions, do you want us to double them?
    Senator Sessions. I would like to see the project in 
Richmond worked in general with local people throughout the 
Nation. I think you would get much enhanced prosecutions. You 
would reduce violent crime, you would save lives. Criminals go 
away longer under the Federal law. The cases are quicker under 
the Federal law. As you well know, in most States it would give 
relief to the overburdened big-city courts, and it is extremely 
popular with local people. All of those are facts, and you and 
I both know that.
    Attorney General Reno. No, sir, I don't, but I will be 
happy to pursue it in every way that I can because I am 
dedicated to making sure that anybody who illegally uses a gun 
is prosecuted and appropriately held accountable.
    The Chairman. Well, let me interrupt in this way. You both 
are making good points. The Boston program has worked very 
well. Project Exile has worked very well. I think what the 
Senator is suggesting is let's expand that around the country.
    Attorney General Reno. We are trying to.
    The Chairman. Well, I think that is----
    Attorney General Reno. But not just Exile. We are saying 
here is Boston as an example that might work.
    The Chairman. I am saying they both have similarities, they 
both are working. You have indicated where one might work 
better than another, you are willing to recommend that. But his 
point is a good point, and that is we have the laws on the 
books to prosecute these gun violations in schools, but they 
are not being prosecuted.
    We had 6,000 kids walk into schools this last year with 
guns and we have had less than 10 prosecutions. Now, that is 
the point. It is a good point, and you have indicated a good-
faith approach toward it that you are willing to do what you 
can to step up and get these things spread around the country.
    Attorney General Reno. We are doing it, Senator, and if we 
are missing something, tell me about it so I can pursue it.
    The Chairman. Well, I don't think you have had enough 
prosecutions for the number of guns that have been walked into 
schools.
    Attorney General Reno. We don't do things based on numbers. 
We do things based on who can handle it best.
    The Chairman. But the point I am making is that I think 
sometimes maybe numbers are important, too, when we have 6,000 
known violations of Federal law. I am not saying you have to 
prosecute all 6,000 of them. But, my gosh, less than 10 
indicates you are not staying on top of it or your U.S. 
attorneys are not staying on top of it.
    Attorney General Reno. I don't think you can conclude that. 
I think you, first of all, look at what State and locals are 
doing and try and figure our the best way to do it and which 
system has the best juvenile justice system to respond.
    The Chairman. Well, I am not trying to put you on the spot, 
General Reno, but what I am saying is this.
    Attorney General Reno. The whole purpose of oversight is 
for me to be on the spot and to be accountable, and I am here.
    The Chairman. The thing that irritates us, to be honest 
with you, is that we have this continual demand for more laws 
when it is apparent to us, or at least seemingly apparent, that 
the current laws on the books--there were 19 such laws violated 
in the Columbine issue, maybe more, but I can name at least 19. 
The fact of the matter is that the question is are we enforcing 
the laws as they exist.
    On the State and local levels, they claim they are. Are we 
doing it on the Federal level? And I think you have tried to 
answer that, but I would look at the criticisms and see if we 
can improve.
    Attorney General Reno. I am looking at it in every way I 
can, and that is the reason I suggested to the Senator if there 
is a specific case where we are not doing right, let me know.
    Senator Sessions. A specific violation or a specific----
    Attorney General Reno. No; a community where there is not a 
good partnership between State and local authorities so that we 
are doing----
    Senator Sessions. I just would say this, Mr. Chairman. We 
had a hearing on it a few weeks ago 2 days after the President 
made his directive to the Attorney General.
    Was it in writing? Did you get a written directive from the 
President?
    Attorney General Reno. I am sure there is a written 
directive.
    Senator Sessions. Or just what he said in his address to 
the people?
    Attorney General Reno. No. I get written directives.
    Senator Sessions. Well, at any rate, I thought we had a 
commitment after that hearing. We heard from the U.S. attorney 
in Richmond and she was very much of a believer in this 
project, and I thought we had a commitment that the President 
was going to act and you were going to act. And now I hear that 
nothing is going to be done; it is going to be business as 
usual.
    Attorney General Reno. No, sir, it is not business as 
usual.
    The Chairman. Well, you have indicated that you are in the 
process of doing that, you want to do it, and we are going to 
judge you next year on how well you have done it. And I think 
Senator Sessions makes some good points. You have indicated a 
good-faith effort and we will count on that.
    Attorney General Reno. I am here, I am accountable, and you 
don't have to wait until next year.
    The Chairman. Well, I would like to see improvement. Let's 
put it that way, OK?
    Attorney General Reno. I can't promise you improvement in 
numbers. I can promise you improvement in making sure that 
these cases are handled as well as they possibly can, 
consistent with Federal, State and local resources.
    The Chairman. It seems to me the numbers will grow rather 
than have the low numbers that we have.
    We have infringed on Senator Torricelli's time, so I am 
going to turn to him right now.
    Senator Torricelli. Actually, you have taken so much time, 
you have gone beyond my time. You have now infringed on Senator 
Kyl's time, Senator Smith's time, and the next hearing. 
[Laughter.]
    The Chairman. Shall we go to Senator Kyl, then?
    Senator Torricelli. Actually, it was worth it to hear the 
Senator from Alabama suggest that authorities in Richmond would 
like more Federal presence in enforcement of the law. It shows 
just how far in the last 135 years America has really come if 
the people of Richmond want this change.
    Madam Attorney General, I found the conversation 
interesting, and although this is not the thrust of my 
questioning, but I only wanted to offer the observation that I 
am sensitive to the frustration. I suspect in my State, if you 
were to ask the people in New Jersey their two principal 
priorities for Federal law enforcement, it would be enforcement 
of narcotics laws because of narcotics trafficking, and the 
trafficking of illegal guns into our State that contradict our 
considerable efforts at reasonable gun control. Yet, I find 
neither to be a priority of either local or Federal law 
enforcement.
    It is my impression that U.S. attorneys' offices throughout 
the country are not operating with direction or a sense of 
priorities. There is a continuing effort by individual U.S. 
attorneys to set their own priorities often involving high-
profile cases at the expense of the day-in and day-out work 
that makes our citizens safer, recaptures our cities, and 
reflects your and the President's real priorities.
    I do not claim to be an expert on the day-in and day-out 
work of the U.S. Attorney's Office in Newark, but it is not my 
sense that there are overwhelming resources to deal with 
narcotics trafficking or this problem of the continued 
incredible flow of illegal firearms into our State.
    I know these issues don't get people promotions. I know 
they don't win headlines, but I know they save lives, and I 
share a little bit--while we are on dramatically different 
sides of the gun control issue--I share a little bit of that 
frustration because I suspect if we were to look at the numbers 
today of how many gunrunners are being interrupted and the 
number of high-level drug cases being prosecuted in my State, 
my guess is it would not be an impressive picture.
    However, now going to what I was going to ask you about, 
what is impressive are Mr. Holder's efforts for which I would 
like to thank you. My State has gone through some painful 
revelations in dealing with the issue of racial profiling. The 
State has had to admit some things about itself and its 
practices in recent years that are uncomfortable and generally 
unforgivable.
    It appears that despite years of denial, there has been a 
policy by law enforcement in New Jersey of using racial 
profiling to question people along our major highways in ways 
that are unforgivable. Our State is coming to terms with this 
issue, but it has been facilitated enormously by the Department 
of Justice, and I am particularly grateful to Mr. Holder for 
his efforts.
    In correspondence from you to Governor Whitman last week, 
you noted that you would enter into negotiations with the State 
of New Jersey with an objective of a consent decree. I would 
like to ask you specifically whether indeed, to date, in 
preparing for these negotiations with an objective of a consent 
decree, the State of New Jersey is being cooperative, whether 
there are additional levels of cooperation that you would still 
like to obtain, and how you see this procedure unfolding toward 
a consent decree.
    Attorney General Reno, I was with Bill Lee Saturday night 
and I have not heard anything in the ensuing days that would 
indicate to me anything other than cooperation. The way I see 
it unfolding, and what I would like to see, again, on a 
nationwide basis, is the development of standards so that 
police officers know what they should do and should not do, and 
that it is very clear. And in the development of this consent 
decree, I think the best practices and other standards can be 
spelled out that can be helpful and informative not just in New 
Jersey, but throughout the country.
    Senator Torricelli. But, in fact, then, in these 
negotiations and this consent decree, we actually could be 
beginning provide a national standard for other communities to 
follow so people recognize when this is going too far and when 
citizens are victimized, as opposed to what is sound law 
enforcement practice?
    Attorney General Reno. National standards, with the 
recognition that there are going to be different circumstances 
in different places.
    Senator Torricelli. Is Mr. Lee going to be the lead in the 
negotiations with the State of New Jersey?
    Attorney General Reno. Yes, he is.
    Senator Torricelli. Generally, what is your sense----
    Attorney General Reno. When I say the lead, he is going to 
be the person responsible as the Acting Assistant Attorney 
General. In terms of day-to-day efforts, he probably would not 
be the negotiator on day-to-day matters.
    Senator Torricelli. I understand that. Mr. Holder has also 
been very knowledgeable on this matter and has, for many of us 
involved in the process, earned a great deal of confidence at 
the moment, for whatever value that may be to you.
    Attorney General Reno. It is of tremendous value to me 
because I rely on him a very great deal on that and many other 
matters for the same reason.
    Senator Torricelli. I can say that the confidence among 
people in New Jersey, now that this process is coming to a 
close, now that the Federal Government is providing some 
oversight, and now that there will be a consent decree that 
people will find free and fair, is in some measure due to Mr. 
Holder's personal presence and the confidence on different 
sides that he has engendered.
    What is your sense, Madam Attorney General, of the timing, 
if you could speculate at this point?
    Attorney General Reno. One of the things that sometimes 
frustrates me about the Justice Department is that it is slower 
than I would like. I made that comment to you at the last 
hearing. I think this is a matter of vital importance to this 
Nation. I would like to see it done with all deliberate speed, 
but I don't want to see it done precipitously. I would like to 
see a lasting result.
    Senator Torricelli. That is obviously important for us as 
well in the State. We want this done properly, but this is a 
conversation that should not be taking place among people in 
New Jersey 1 year from now or 6 months from now. We need to get 
this behind us. It goes to the credibility of our State 
government and the confidence of people living in sometimes 
difficult circumstances. So I hope this will receive that kind 
of attention.
    Let me also ask you, there have now been revelations that 
hotel clerks and employees have been used as informants on 
narcotics trafficking by the State police. I believe it is in 
the great traditions of our country that citizens provide 
information at their own risk to help law enforcement solve the 
most dangerous crimes in our society. And I certainly believe 
it is appropriate for the State police and the FBI to ask 
citizens to be informants.
    The problem is that there are allegations that law 
enforcement was asking hotel clerks to look for people who were 
speaking Spanish. In my judgment such use of language is not a 
fair indicator of whether people are involved in criminal 
conduct. The other indicators--the use of cash, the movement of 
rooms, the frequency of phone calls, other patterns of 
behavior--might be appropriate.
    I want to congratulate New Jersey's citizens for offering 
their assistance, but we need more sensitivity from law 
enforcement. Finally, I am greatly concerned, Madam Attorney 
General, that now that this practice has unfortunately been 
made public, some of the most dangerous criminals in America 
who are trafficking in narcotics across our highways are aware 
that both in the past and even in recent weeks, ordinary 
citizens were providing surveillance and acting as informants.
    You know far better than any member of this Committee the 
level of violence of which some of these narcotics traffickers 
are capable. I hope in your conversations with the FBI Field 
Office in Newark and with local law enforcement officials, you 
will do your best to ensure that they are doing everything 
possible to ensure the safety of the citizens who offered 
information, and to put the criminal element on notice that we 
care about these informants. We are aware. We are watching. And 
we are going to take measures to protect them.
    Attorney General Reno. May I have a break?
    The Chairman. Sure.
    Attorney General Reno. Thank you. I will be right back.
    The Chairman. Let's have a 5-minute break. We are going to 
have a vote here any minute and I would like to finish with our 
last two questioners. So we will recess for 5 minutes.
    [The committee stood in recess from 12:03 p.m. to 12:05 
p.m.]
    The Chairman. I apologize for not asking you if you needed 
a break before then, so please forgive me.
    We will turn now to Senator Kyl. There is a vote on, so I 
would like to finish the last two, and so we will go with you, 
Senator Kyl, and then last but not least Senator Smith.
    Senator Kyl. Thank you, Madam Attorney General, for your 
perseverance here this morning. I want to begin by spending 
about 30 seconds on comments that the ranking Democrat on the 
committee made regarding the costs of the independent counsel, 
specifically Ken Starr's investigation, to make two points.
    The first is that when I was in the House of 
Representatives and we last reauthorized the statute, there was 
a substantial Republican effort, in response to Lawrence 
Walsh's investigation at the time, to control the cost of 
independent counsel, and that was thwarted by Democrats. 
Senator Leahy had his opportunity and did not take advantage of 
it at that time.
    The second point is this. Like spending money on national 
defense, we may all prefer to spend our money on matters other 
than law enforcement, but public corruption is very serious 
business. It is a top priority of law enforcement, as I am sure 
the Attorney General would agree, and it must be dealt with. 
When targets don't cooperate but deliberately seek to obstruct 
justice, as President Clinton did, now confirmed by a Federal 
district judge, it will cost more. And, Mr. Chairman, I think 
it is important to make those points in response to what 
Senator Leahy said.
    Now, Madam Attorney General, when you and I first met 
before I was selected to the Senate in September 1994, in 
Phoenix, it was on the occasion of my attempting to urge that 
you make a top priority controlling Arizona's and the other 
States' borders with Mexico. We had a horrible situation there, 
and in your testimony you allude to the fact that you have made 
substantial progress since that time. I commend you for the 
progress to date, but express significant concerns about the 
fact that that progress is now stopping.
    Unfortunately, the strategy was first to control San Diego 
and then to control Texas, funnel the illegal immigrants 
through Arizona. And that is a good strategy if you follow it 
through. The problem is when they get to my State, the strategy 
is no longer in effect, and therefore my State is being overrun 
by illegal immigrants and by contraband coming into the United 
States illegally. It is a catastrophe. People are going to get 
hurt, and this is what I want to focus on today.
    The testimony of officials under your jurisdiction that it 
was time to take a breather is fundamentally wrong. No one at 
the border is taking a breather, and the Justice Department 
cannot afford to take a breather either. You know that under 
the 1996 immigration bill, we are supposed to hire 1,000 new 
agents each year. That is supposed to be net. With attrition 
rates approaching 10 percent per year--that is about 800 agents 
per year--if we don't fund 1,000 new agents, there will be far 
fewer agents than are currently deployed to do an ever-
increasing job.
    In 1998, 1.5 million individuals nationwide were 
apprehended while attempting to cross the border. Now, the rule 
of thumb is that there are about three that are not apprehended 
for every one that is. That is 4.5 million illegal immigrants 
into the United States per year.
    And just to bring it back to my own State of Arizona, in 
March alone, in the Tucson sector alone, over 60,000 illegal 
immigrants were apprehended in just 1 month. That equates to 
about 725,000 apprehensions annually in just the Tucson sector. 
Twenty-eight thousand pounds of marijuana were seized, an all-
time record. You have a situation where 600 immigrants are 
trying to cross en masse, in broad daylight, near the small 
town of Douglas, AZ. Ranchers nearby are taking laws into their 
own hands. We are going to have more people die this summer as 
they try to cross the border illegally out in the middle of the 
desert.
    This is a top Federal responsibility, but it is instructive 
to me that in your opening statement of about 41 pages, 
controlling illegal immigration--and I think this is a 
metaphor--we get to that on page 35. There are programs that 
are not Federal responsibilities, for example, supporting State 
and local law enforcement, that have a priority--you start 
talking about that on page 11. But here you have the Federal 
Government which has the sole responsibility of controlling the 
border. And as I say, I think it is a metaphor that we get to 
that on page 35.
    What you note in your testimony is that you launched 
Operation Gatekeeper in San Diego and Operation Hold the Line 
in El Paso, and that that has had some significant effect in 
those communities. But as you know, the strategy, as I said 
before, is to funnel those people through Arizona. You also 
note that this year there were no funds requested to hire 
additional Border Patrol agents, notwithstanding the 1996 law.
    Now, it is unacceptable, and I am sure you can imagine my 
plight of representing a State where people are saying, wait a 
minute, I thought we were going to control the border and the 
Attorney General asked for zero funds to hire any new agents. 
In this past year, we were supposed to get 1,000 agents. 
Arizona would have gotten about 350 to 450 of those agents, I 
am told, but now we are only going to end up hiring about 200 
to 400, according to the testimony of the head of the Border 
Patrol, and Arizona is likely to get about 100 to 150 of those. 
That is unacceptable.
    Twenty of the twenty-one border chiefs have said that they 
desperately need new agents. Chief Sanders has said we need 
20,000. General McCaffrey said we need 20,000. A University of 
Texas study says we need 16,000 just on the southwest border. 
So it is clear that we have got to hire more border agents.
    My first question to you is did you support Doris 
Meissner's request for 1,000 new border agents in this year's 
budget?
    Attorney General Reno. We suggested that there be 
additional Border Patrol agents, but we also feel very, very 
strongly that with 48 percent of the Border Patrol agents 
having 3 years of experience or less, it is very important that 
we provide a balance.
    Senator Kyl. I understand that. My question was Doris 
Meissner acknowledged that she had requested 1,000 agents. Did 
you support her in that request?
    Attorney General Reno. I think I will provide you with the 
exact amount that we--I don't remember----
    Senator Kyl. Well, she said she requested 1,000. The 
administration came up with zero.
    Attorney General Reno. I do not remember whether----
    Senator Kyl. Whether you supported the full 1,000 or not?
    Attorney General Reno. The answer is yes.
    Senator Kyl. You did support the full 1,000?
    Attorney General Reno. That is what we went----
    Senator Kyl. I thank you for that.
    Attorney General Reno [continuing]. To OMB with.
    Senator Kyl. Right, and OMB said no, it is zero, and the 
same thing for Customs. And I appreciate that. We need to 
continue to fight for it, though.
    The rationalization now that you just gave doesn't apply to 
the Tucson sector. Eighty percent of the people there have 2 or 
more years of experience, so you could put a lot more new 
agents in the Tucson sector. And, ironically, that is right 
where they are needed. It shouldn't be a surprise. We have put 
them in California, we have put them in Texas. There are more 
new agents there. There aren't more new agents in Arizona 
because we haven't put them there yet, so we could put more new 
agents in the Tucson sector.
    Attorney General Reno. And I understand that you are going 
to be meeting with Deputy Attorney General Holder on this.
    Senator Kyl. Yes, and I understand he has your full 
authority to act in this regard to try to assist us.
    Attorney General Reno. That is correct. Now, what we also 
have got to make sure of is that there is a balance of adequate 
resources because as you increase the Border Patrol, you have 
got to have the capacity in terms of prosecution and otherwise.
    Senator Kyl. Absolutely, and I could not agree more with 
you on that and I support everyone, from the marshals to the 
magistrates to the jails, and so on. Absolutely correct. We 
need far more money than we are getting, and we need your 
support in pushing OMB and the President to get what the law 
requires.
    Since my time is short and we have this vote on, let me 
just ask you to please answer for the record this question. Of 
the $93 million that was appropriated to hire the 1,000 border 
agents for this fiscal year, will you tell us how much of that 
to date INS has spent and whether you would support a program 
to use some of that money for a hiring bonus this year so that 
we can hire more than 200 to 400, as is the currently projected 
number?
    Attorney General Reno. I will get the exact amount of 
dollars. I want to explore the hiring bonus because I don't 
know what that does in terms of morale with troops who are 
already on the line. So we have got to analyze that carefully.
    Senator Kyl. Thank you.
    The Chairman. Senator Smith, you will be our final 
questioner.
    Senator Smith. Thank you, Mr. Chairman. I know we are about 
out of time on the vote, but let me just ask the Attorney 
General a couple of questions.
    I know you indicated you don't want to talk about the 
content of Los Alamos unless we go into executive session, 
Madam Attorney General, but let me just ask you this. As I 
understand it, agents of the FBI went to Justice, to the Office 
of Intelligence Policy Review, to request an application to the 
special court created by the Foreign Service Intelligence 
Surveillance Act for a wiretap on Mr. Lee.
    Now, Acting Director Gerald Schroeder denied that request, 
I am told, and then the FBI appealed to Eric Holder, who also 
denied the request. Did Director Freeh or any of his 
subordinates appeal Mr. Holder's decision to you?
    Attorney General Reno. No, and I will just again stress 
what I did before. I think it is very important for you to hear 
the whole picture and not just what you read in the newspapers. 
I have no understanding that there was an appeal to Mr. Holder. 
I think it is very important that we look at the process. We 
are in the process of doing that.
    At this point, I don't think that there has been any 
incorrect decision, but we are going to look at it very 
carefully. But don't, please, sir, jump to conclusions.
    Senator Smith. I understand. I am just trying to get two or 
three questions that I think just in----
    Attorney General Reno. Well, I would urge you that these 
questions can be far better and more completely answered and 
more accurately answered in a closed session.
    Senator Smith. I can appreciate that, but let me ask you 
this. Did the White House contact you or any other Department 
of Justice official regarding the FBI's request for a wiretap? 
Did they ask you not to do it?
    Attorney General Reno. No.
    Senator Smith. Did they discuss it with you at all?
    Attorney General Reno. No.
    Senator Smith. Just one more question because we are out of 
time. And I understand that we can get into this further in 
executive session, but 99 percent of the requests for this kind 
of information are granted. And here is a situation here where 
a national security incident is out there, and yet this is 
denied.
    I would like to explore that with you at some point 
wherever is the appropriate place, but let me just ask you 
this. Why did your Department believe that a search warrant was 
necessary for Mr. Lee when it is a Government computer, it is a 
Government office, and it is a matter of the highest national 
security of the U.S. Government?
    Attorney General Reno. As I indicated, nobody should be 
discussing these matters that are classified, and we will be 
happy to try to brief you in an appropriate fashion with 
appropriate security.
    Senator Smith. Well, Mr. Chairman, these are very important 
questions. Would you just at some point clarify for us when we 
are going to have the opportunity to ask these questions? 
Beyond that, I will yield back.
    The Chairman. General Reno has said that she will have a 
classified discussion with appropriately cleared staff before 
the end of this week, and then we will try to jointly come up 
with, with the ranking member, a date for a closed session.
    Senator Smith. With members?
    The Chairman. With members, right.
    Senator Smith. Thank you. Thank you, Madam Attorney 
General.
    Attorney General Reno. Thank you.
    The Chairman. Thank you. Would you tell them to hold the 
vote for me? I will be right over. I just have one question, 
and you have to appreciate me because I haven't hardly asked a 
question.
    Attorney General Reno. I always appreciate you even when 
you ask me lots of questions and put up big posters and 
everything else. [Laughter.]
    The Chairman. I spared you today, except for the beginning.
    Many in Congress have been searching for ways to limit the 
exposure of violent or sexually explicit material or content, 
whether in movies, songs or graphic video games, to children. 
As chairman of the Judiciary Committee, I am mindful of the 
first amendment concerns implicated by government attempts to 
regulate content on the Internet or over other media, but I do 
believe we have to do what we can to promote responsibility on 
the part of the entertainment industry.
    Now, I am interested in hearing your views on a proposal 
that I have been considering to provide the industry with a 
limited exemption from the antitrust laws in order to give them 
the freedom to develop and enforce voluntary standards and 
enforcement mechanisms without the fear of antitrust liability 
or regulation. This would allow the appropriate industries to 
enter into joint discussions, joint consideration, and possibly 
joint agreement among themselves in developing--and here is the 
key--and enforcing voluntary guidelines to address the negative 
impact of violence and sexually explicit material in video 
games, music, movies, and the Internet.
    Now, you can take time to answer this in writing, if you 
would care to, and I think it will take some time to reflect. 
But I am anxious to get your views on this possible proposal, 
and I want you to work with me and my colleagues on the 
committee in developing a reasonable proposal along these 
lines, if you will. I would appreciate it. But if you will 
submit your----
    Attorney General Reno. I will be happy to submit it, and I 
will be happy to work with you on this issue. I would be happy 
to work with the committee, with Senator Sessions on the gun 
package. I just have the feeling that in this next 1\1/2\ years 
we can do so much if we work together.
    The Chairman. If we work together, we can do a lot of good 
for our young people.
    Attorney General Reno. I am committed to doing everything 
that I can.
    The Chairman. Well, thank you so much. I know it is always 
a pain to come up here, and especially on an oversight hearing. 
We will have to have that private session, but as usual you 
have cooperated very well and I appreciate it. I just hope we 
can get to the bottom of some of these other questions.
    Attorney General Reno. Can I just say one other thing?
    The Chairman. Sure.
    Attorney General Reno. There are times that you support a 
person just because of reputation. There are times when you 
support a person because you have watched them in action and 
you understand the depth of their feeling, their fairness, 
their intellect and their abilities.
    Bill Lann Lee has been just a splendid person to work with, 
and I just urge you to confirm him. He has such a wonderful way 
of working with States and others to work out the issues 
without sacrificing principle. He is doing a wonderful job now 
and he will serve you and this Nation very well.
    The Chairman. Well, I appreciate those comments. Let me 
just say this. I intended to support Bill Lann Lee before his 
testimony, and I told him he would have to be very careful in 
his testimony. And, in my opinion, he did not evidence a 
complete agreement to abide by the law.
    Second, having been appointed as acting for over 15 months 
now, in what I consider to be a violation of the Vacancies Act, 
that alone causes some on our side to feel that it is flying in 
the face of justice to resubmit him.
    Third, my feeling about it is this. As you know, the 
Department has been cooperating with us in investigating or 
looking into and analyzing and evaluating Mr. Lee's efforts 
down there. The purpose of that is for me to be fair to Mr. Lee 
because I personally like him. I think he is an excellent 
attorney. I think he is the type of person I would want to 
serve in almost any other position in government, but I have 
got to be assured that whoever serves in these very difficult 
positions is going to abide by the law.
    And we are going to look at that very carefully and, as you 
know, I will be as fair as I can possibly be. I will be fair; 
it is just that simple. And it may involve some angst on the 
part of some people around here, but the fact of the matter is 
we are looking at it. We appreciate the Department's 
cooperation with us and Mr. Lee's cooperation with us. He has 
been very cooperative, and that means a lot to me and it goes a 
long way.
    But we still have a little way to go to finish that 
evaluation, and I think it is safe to say that the vast bulk of 
what he does is not in question. But there are some matters 
that are in question. As you know, I will try to be fair, but I 
also have to abide by the law.
    Attorney General Reno. You are always fair and I appreciate 
that very much.
    The Chairman. Thank you, Madam Attorney General. We 
appreciate you, and with that we will recess until further 
notice.
    [The prepared statement of Attorney General Reno follows:]

           Prepared Statement of Attorney General Janet Reno

    Good morning, Mr. Chairman, Senator Leahy, and Members of the 
Judiciary Committee. Just a month and a half ago, I came before this 
Committee to discuss the Department's proposed budget for fiscal year 
2000. I am pleased to appear before you again today to testify about 
the record of the Department of Justice and the work that we are doing 
to enforce our Nation's laws, make America's communities safer and more 
secure, and strengthen our law enforcement systems so that we will be 
prepared to address the new challenges of the coming century.
    The oversight function of this Committee is very important, and I 
welcome it. You also have been active and full partners in so much of 
the work we have done over these past six years. We could not have made 
such tremendous progress in recent years without your strong support 
and attention.
    We need today to harness all the energy, expertise and resources 
that we have in our Department, in this Congress, and in our 
communities to break the cycle of violence in this country.
    I hope that we can work together to face this challenge, just as we 
have worked together on so many important issues, for this is one of my 
highest priorities as I look to the future.
    I first appeared before the Senate Judiciary Committee in 1993. The 
challenges that we faced at that time were great. Americans were 
concerned about the problem of crime. Our own resources--at Main 
Justice, among our law enforcement components, and in our U.S. 
Attorneys' offices--were lacking. We had work to do to assure that our 
personnel were trained and ready on an up-to-the-minute basis, with 
current and integrated information technology. We did not yet have a 
strategic plan to address the new and growing problem of cybercrime. 
Criminal enterprises were becoming increasingly global, and yet we were 
just establishing our own ability to fight crime abroad. The 
Immigration and Naturalization Service (INS) lacked the manpower or 
resources to effectively enforce our nation's immigration laws. And 
communities across America had little faith that the federal government 
could effectively address their concerns about crime, the environment, 
or civil rights.
    In 1993, I committed to working with you to address the nation's 
domestic and international crime problems, improve enforcement of our 
civil rights and environmental laws, secure our borders, assure a 
competitive and fair marketplace as we transition to an information-
based economy, and ensure that every part of the Department of Justice 
works effectively to advance our mission.
    I am pleased to report today that, working closely with you and the 
Congress, we have made great headway in each of these areas, and we 
have laid a solid foundation to tackle the challenges that we face.

      I. The Administration's Comprehensive Crime Control Strategy

    Over the decades and across the country, Americans had grown very 
concerned about the problem of crime. With the support of President 
Clinton and Vice President Gore, the bipartisan efforts of this 
Congress, the dedicated work of federal, state, local, and tribal law 
enforcement, and with the strong support of our communities, we are 
turning this situation around.
    Over the past six years, the Department has implemented a 
comprehensive crime control strategy with seven key objectives:

  <bullet> Vigorously enforcing federal criminal laws in cooperation 
        with other federal agencies to have the greatest impact on 
        crime problems--including terrorism and other crimes against 
        national security;

  <bullet> Building partnerships with, and providing resources to, 
        state, local and tribal law enforcement in order to ensure that 
        law enforcement agencies can conduct criminal investigations 
        and prosecutions effectively, without regard to turf or credit;

  <bullet> Developing a comprehensive initiative against drug 
        trafficking and abuse, which includes fair and firm punishment, 
        and education, prevention, drug courts, post-incarceration 
        monitoring, and reentry programs for drug-dependent offenders.

  <bullet> Developing a comprehensive program to end the culture of 
        violence through targeted efforts directed at gun violence, 
        juvenile crime, and domestic violence;

  <bullet> Working with law enforcement at all levels to develop the 
        capacity to investigate and prosecute cybercrimes;

  <bullet> Establishing a strong international presence to ensure that 
        there is no safe place for criminals to hide; and

  <bullet> Promoting integrity in law enforcement at all levels.

    We started in 1994, by working with Congress to achieve passage of 
the Violent Crime Control and Law Enforcement Act. This legislation has 
formed the basis for the Department's comprehensive crime control 
strategy. Over the past five and half years, we have worked to enforce 
this law, build strong partnerships with communities, and help 
strengthen state and local law enforcement agencies. We believe that 
the strategy now in place is working.
    Today, the violent crime rate is down 21 percent since 1993, and is 
at its lowest level since 1973. The overall crime rate is at the lowest 
level in nearly a quarter of a century. Murders have fallen by more 
than 20 percent in larger cities and suburban communities. And, 
although it may be hard to believe after last month's tragedy in 
Littleton, Colorado, violent crime by juveniles is down for the third 
consecutive year. We must build on the progress we have made and 
continue to work toward a safer America.
             a. vigorously enforcing federal criminal laws
    The Department of Justice vigorously investigates and, prosecutes 
criminal violations of the laws of the United States. Overall, in 1998, 
federal prosecutors successfully convicted 89 percent of those 
defendants whose cases were closed during the year, and 77 percent of 
all convicted defendants were sentenced to prison.
1. Targeting violent offenders, organized crime and white collar crime
    In 1998, the Department prosecuted many violent criminal offenders 
using the enhanced criminal provisions of the Violent Crime Control Act 
of 1994. Last year, federal prosecutors filed 6,889 cases against 8,703 
violent offenders, increasing the total number of cases by 10 percent 
over the previous year.
    The Department also prosecuted 26,906 defendants for narcotics 
violations in 1998, increasing the number of defendants charged by 14 
percent over the previous year. We have had particular success 
targeting and dismantling major criminal and drug trafficking 
organizations. In 1998, the Department filed 199 cases against 390 
organized crime defendants. These included the 6 successful prosecution 
of 22 members of La Cosa Nostra (LCN) on racketeering-related charges.
    Additionally, the Department has continued to aggressively 
prosecute ``white-collar'' crime, filing 6,669 white-collar crime cases 
against 8,518 defendants last year.
2. Targeting domestic terrorism
    The Department of Justice has taken steps to prevent and prepare 
for the threat of terrorism in the United States, and to prosecute 
those who commit such heinous acts.
    Under its role as the designated lead agency for domestic 
terrorism, the FBI and the Department are taking steps to ensure that 
state and local communities are prepared in the event of a terrorist 
attack involving weapons of mass destruction (WMD). We convened a 
meeting last August to get input and expertise from our federal agency 
partners in this effort, the Departments of Energy, Defense, Health and 
Human Services, the Environmental Protection Agency and FEMA, as well 
as from state and local first responders.
    We have proposed the establishment of the National Domestic 
Preparedness Office (NDPO) to coordinate federal domestic preparedness 
activities and to serve as a clearinghouse for information to state and 
local first responders. Working in conjunction with other federal 
agencies, the NDPO will act as a single point of contact for first 
responders to access information about and receive assistance from the 
multitude of federal domestic preparedness programs.
    We have also looked to the state and local responder community to 
provide us valuable input throughout our planning efforts. In the 
proposed NDPO effort, an advisory committee of state and local 
authorities will be the bridge between the federal planning team and 
the states and local emergency response and health care community. We 
also established a Center for Domestic Preparedness in Fort McClellan, 
Alabama, to train state and local emergency personnel. To date, we have 
helped train 500 emergency personnel at this new facility, and we have 
provided $12 million to metropolitan areas for emergency equipment 
needed to respond to terrorist incidents.
    Additionally, at the direction of the Congress, we have prepared a 
Five-Year Counter Terrorism and Technology Crime Plan (Five-Year Plan) 
which was submitted on December 30, 1998. The Five-Year Plan serves as 
a baseline strategy to combat terrorism in the United States and 
against Americans abroad. I am committed to working with Congress and 
with other federal agencies to continue to develop this plan.
    In addition to our work to prevent and prepare a response to 
terrorism, the Department has successfully prosecuted several 
terrorists. Last year, Timothy McVeigh was sentenced to death, and 
Terry Nichols was sentenced to life in prison in connection with the 
bombing of the Alfred P. Murrah federal building in Oklahoma City that 
killed 168 Americans. Ramzi Ahmed Yousef, convicted in the World Trade 
Center bombing that killed six and injured hundreds, was sentenced to 
240 years in prison. And, also last year, the UNABOMBER, Theodore J. 
Kaczynski, pleaded guilty and was sentenced to life in prison without 
the possibility of parole.
3. Protecting national security
    The Department of Justice plays a key role safeguarding America's 
national security. During the last several weeks there has been a 
considerable amount of publicity about possible espionage at the Los 
Alamos National Laboratory. We are zealously investigating these claims 
and I can assure you that we will aggressively prosecute any person 
whom we determine illegally transferred classified information. Our 
National Laboratories handle some of our country's most sensitive and 
classified scientific research and we must make certain that their 
secrets are not disclosed improperly.
    I have discussed these issues with FBI Director Freeh and the 
Secretary of Energy, Bill Richardson, and I know that they share my 
concerns. Our goals at this point are twofold. First, we must take 
every step necessary to ensure the security of the national 
laboratories. Second, we must be certain that we identify, investigate, 
and, if there is sufficient evidence, prosecute every person 
responsible for divulging classified information.
 c. building partnerships with state, local and tribal law enforcement
    Beginning early in the Administration, we recognized that it was 
essential to join forces with our state, local and tribal counterparts 
and with local communities to fight-crime.
1. Supporting State and local law enforcement
    The cornerstone of our community crime control strategy is 
community policing. Since 1994, the Department has provided more than 
$5.4 billion in funding for this program and we are close to reaching 
our goal of funding 100,000 community police officers.
    The Department of Justice is now planning to build on the 
foundation we have laid for community policing with a new 21st Century 
Policing Initiative. This initiative will strengthen community police 
forces in high crime areas, and provide police with new technologies, 
communication systems and equipment.
    Senator DeWine and Senator Leahy have shown such tremendous 
leadership in this area in their work last year on the Crime 
Identification Technology Act (CITA). We hope that you will support our 
21st Century Policing Initiative that includes $350 million 
specifically for state and local crime-fighting technology.
    The Administration is also building on community policing with a 
community prosecution initiative to fund up to 1,000 prosecutors, each 
year for five years, to advance community-based prosecution strategies 
across the country.
    Community policing and community prosecution programs are part of 
our larger Department of Justice effort to support state and local law 
enforcement. Since 1993, we have increased federal support for state 
and local law enforcement by 294 percent--an increase of more than $2.9 
billion.
    Within the Department of Justice, the Office of Justice Programs 
(OJP) principally works with federal, state, local, and tribal agencies 
and organizations to develop, fund, and evaluate a wide-range of 
programs to prevent and control crime. At the present time, we are 
developing a new organizational structure for OJP to make the work of 
this office more efficient and accessible for the state, local and 
tribal communities.
2. Building Federal community-based crime strategies
    At the federal level, the Department of Justice has developed a 
community-based strategy for federal law enforcement to use in fighting 
violent crime. We have dramatically expanded the Department's Weed and 
Seed Program from about two dozen sites in 1993 to nearly 200 sites 
today. In addition, we launched a major new violence reduction effort 
in 1994: the National Anti-Violent Crime Initiative (AVCI). Throughout 
the country, U.S. Attorneys have developed coordinated, comprehensive 
strategies to address violent crime problems in their districts.
3. Improving tribal justice
    The Department of Justice is committed to encouraging and 
supporting continued-adherence to the principle of government-to-
government relations between federally recognized Indian tribes and the 
federal government. Last year, we proposed a multi-year Indian Country 
Law Enforcement Initiative to help raise the level of law enforcement 
in Indian country to national standards. With additional funding in 
fiscal year 2000, we plan to increase the number of law enforcement 
officers on tribal lands, provide more equipment and training, 
construct badly needed detention facilities, enhance juvenile crime 
prevention and intervention, improve the effectiveness of tribal courts 
and criminal statistics collection systems, and hire 26 additional 
Assistant United States Attorneys to prosecute major crimes in Indian 
country.
      c. developing a comprehensive initiative against drug abuse
    The Department of Justice has a comprehensive program to control 
the trafficking and use of illegal drugs. This program, prepared in 
coordination with the Administration's National Drug Control Strategy, 
aims to reduce the availability of illegal drugs in the United States. 
It includes aggressive efforts designed to disrupt and dismantle multi-
jurisdictional drug trafficking organizations. It also includes drug 
education, prevention and treatment programs to break the cycle of 
crime and drugs.
    The Department of Justice is now implementing a comprehensive Drug 
Control Strategic Plan, announced in March of 1998, to attack drug 
trafficking. First, the Department's Organized Crime Drug Enforcement 
Task Force (OCDETF) brings the expertise, experience and capabilities 
from the law enforcement components into one group. OCDETF targets the 
highest level traffickers and organizations. It also works with the 
Department of Defense, and with state and local agencies to combat 
illegal drug activities.
    Second, our United States Attorneys are developing local drug 
strategies to address the particular threats and needs in their 
districts. We are developing these strategies in conjunction with state 
and local law enforcement and with community leaders.
    Third, we are coordinating drug enforcement efforts with violent 
crime control and anti-gang measures undertaken as part of the Anti-
Violent Crime Initiative. The Drug Enforcement Administration (DEA) 
Mobile Enforcement Team Program and the Federal Bureau of Investigation 
(FBI) Safe Streets Task Force are particularly involved in this effort.
    Fourth, we are working cooperatively with foreign governments to 
develop productive counter-drug relations. We are negotiating 
extradition treaties so that we can prosecute international drug 
traffickers here in the United States; and we have established FBI and 
DEA centers oversees to investigate drug trafficking and to coordinate 
enforcement efforts with foreign countries.
    At the same time, we are focusing more and more on the strong link 
between crime and drugs. A recent report by the National Center on 
Addiction and Substance Abuse, drawing upon data from the Department's 
Bureau of Justice Statistics, found that 80 percent of people serving 
time in state or federal prisons were either high when they committed 
their crimes, stole to buy drugs, violated drug or alcohol laws, or 
have a long history of substance abuse.
    This tells us that it is not enough simply to punish drug using 
offenders and then send them back out on the streets--still drug and 
crime dependent. Over the last six years, the Administration has 
developed a comprehensive program for drug offenders. It includes 
expanded drug testing programs for arrestees, drug courts to compel 
treatment and reduce recidivism by non-violent drug offenders, and 
effective treatment for offenders while they are incarcerated. It also 
includes testing, follow-up treatment, and sanctions to assure that 
offenders stay clean after they are released. Such efforts are 
demonstrably effective in reducing offender drug use and drug-related 
crime.
    I hope that we can build on this program with increased funding in 
fiscal year 2000 for drug courts, and for drug testing and treatment 
programs for offenders at the federal, tribal, state and local levels.
              d. breaking the cycle of crime and violence
    We have put an effective strategy in place to reduce crime. Now, we 
must resist the complacency that often accompanies such substantial 
progress. As the tragic events in Littleton, Colorado and the 
continuing violence in so many of our inner cities remind us, there is 
still too much crime and lawlessness in America.
    Working together to reduce the unlawful possession of firearms, to 
address the problems facing our youth, to end domestic violence, and to 
assist crime victims and strengthen the ties in our communities, we can 
help break the cycle of crime and violence for tomorrow.
1. Keeping guns away from criminals and children
    The Department of Justice is taking a number of measures to reduce 
gun violence.
    First, the Department is implementing the Brady Law. Through 
November 1998, during the first five years of the operation of the 
Brady Law, over 250,000 felons and other prohibited persons were denied 
firearm purchases. Since November 1998, the Department has implemented 
the Brady Law's National Instant Check System (NICS). NICS has already 
processed more than 3.4 million background checks, and the FBI alone 
has denied gun transfers to more than 36,000 people who should not have 
them. We estimate that our state partners have denied at least as many 
as well.
    The Department is seeking to restore the user fee for the National 
Instant Criminal Background Check System. A user fee for NICS is the 
best way to cover the cost of operating the system. Without a user fee, 
taxpayers must pay for firearms background checks, and states will stop 
conducting NICS background checks. We look forward to working with you 
to resolve this funding issue.
    Second, we have asked U.S. Attorneys to develop an anti-violence 
strategy with state and local law enforcement to target illegal guns. 
We recognize that each district will have a different strategy, 
tailored to the particular needs in that community. In Boston, 
Massachusetts, for example, the U.S. Attorney, working with local 
enforcement and community coalitions, used a problem-solving approach 
to combat gun and gang violence. The strategy helped cut youth homicide 
rates by 71 percent in two years. In Richmond, Virginia, the U.S. 
Attorney dramatically increased the number of federal prosecutions of 
gun crimes. Richmond's Project Exile contributed to a 41 percent drop 
in the number of firearms homicides in 1998.
    Third, under the President's Directive of March 20, 1999, the 
Department is taking our local efforts to reduce gun crime one step 
further, building upon the Anti-Violent Crime Initiative's focus on 
coordinated partnerships among federal, state, and local law 
enforcement. I will be directing each U.S. Attorney to work closely 
with the Bureau of Alcohol, Tobacco and Firearms (ATF) Special Agent-
in-Charge, as well as with state, local, and tribal law enforcement and 
community leaders, to develop an Integrated Firearms Violence Reduction 
Strategy tailored to the needs of each district. Secretary Rubin has 
directed ATF Special Agents-in-Charge to do the same.
    Fourth, the Department has published a handbook of proven gun crime 
and violence reduction strategies in place in communities around the 
country. This handbook, Promising Strategies to Reduce Gun Violence, 
has been distributed to Members of Congress, all U.S. Attorneys, and 
others, and it is available to the public through the Department's 
clearinghouse.
    Finally, last week, the President announced that he is proposing a 
comprehensive bill to strengthen America's firearms and explosives 
laws. This Act would reduce illegal gun purchases and gun trafficking 
by limiting the purchase of handguns to no more than one per month. It 
would raise the age of the youth handgun ban from 18 to 21 years of 
age, and halt the importation of large capacity ammunition magazines. 
It would ban possession of semi-automatic assault rifles by anyone 
under 21, and require Brady background checks for the purchase of 
explosives. The proposed legislation would also help law enforcement 
trace more guns used in crimes to their sources, and close the loophole 
in our Brady law that allows criminals to purchase guns at gun shows.
1. Juvenile crime
    The Department has developed a strategy to address juvenile crime 
and improve juvenile justice. It provides for a continuum of programs--
from prevention to early intervention to graduated sanctions for 
juvenile offenders. We are supporting state and local efforts to build 
juvenile justice systems that can deliver the right services and 
sanctions in a cost-effective manner. We are also providing states and 
communities with funding to implement comprehensive delinquency 
prevention programs. To date, the Department has awarded Title V 
Community Prevention grants to 619 communities.
    At the federal level, the Clinton Administration has proposed 
legislation to enhance the effectiveness of the federal juvenile 
justice system.
    Finally, the Department is focusing on the specific problem of 
violence in our schools. At the President's direction last year, the 
Department convened meetings with a broad range of experts to discuss 
the issues raised by last year's school shootings and the larger issue 
of youth violence. The Department of Justice also worked hand in hand 
with the Department of Education to publish and distribute Early 
Warning, Timely Response: A Guide to Safe Schools, to help parents, 
teachers, and principals recognize and respond to youth who have 
displayed the warning signs of violent behavior.
    The juvenile arrest rate for violent crime has dropped for three 
straight years, falling 23 percent from 1994 to 1997, after rising 
steadily from 1989 to 1994. We have also seen significant declines in 
every type of juvenile violent crime, including a 43 percent drop in 
the juvenile murder arrest rate from 1993 to 1997. Yet, the tragic 
explosion of violence at Columbia High School in Littleton, Colorado 
reminds us all that there is still too much violence in our schools and 
our communities and many challenges still lie ahead.
3. Ending violence against women
    Over the past six years, the Clinton Administration, largely 
through the Department of Justice, has greatly expanded efforts to 
address violence against women.
    In 1994, Congress passed,the Violence Against Women Act (VAWA). 
This law launched the first major federal effort to address violence 
against women. Since the enactment of this law in September 1994, the 
Department of Justice has made combating domestic violence, stalking 
and sexual assault a major priority.
    Over the past six years, the Department has filed 141 indictments 
and obtained 100 convictions under the federal domestic violence laws. 
To coordinate VAWA cases effectively, the Department has also assigned 
a point of contact in every United States Attorney's Office who works 
with the FBI, ATF, and local police and prosecutors to raise awareness 
of VAWA, exchange information about domestic violence and sexual 
assault cases, coordinate resources on those cases, and ensure referral 
of appropriate cases for federal prosecution.
    The Department is now responding to the increasingly serious 
problem of international trafficking, particularly in women and 
children. Through trickery, or physical, economic or other duress, 
victims are smuggled into the United States and other countries for the 
sex trade, unlawful labor, and other illegal purposes.
    The Department has also, since 1994, awarded over $700 million to 
police, prosecutors, victim service providers, and courts at the state, 
tribal, and local levels through VAWA grant programs.
4. Assisting victims of crime
    In the past decade, the federal government has taken unprecedented 
steps to assist crime victims. New federal and state laws define and 
protect the rights of victims--to information, to participate in 
judicial proceedings, and to receive compensation. Currently, the 
Department, through the Office for Victims of Crime, provides direct 
financial assistance to victims nationwide, and today, every United 
States Attorney's Office has a victim/witness coordinator.
                         e. fighting cybercrime
    In this Information Age, people use computers, the Internet, and 
other new information technologies (IT) to conduct business, perform 
research, and to communicate with others. Criminals use these 
technologies as a new means to commit old crimes like defrauding 
unsuspecting senior citizens, distributing child pornography, stealing 
credit card numbers, and robbing banks. Our Nation has become so 
reliant on new technology that the national and economic security of 
the United States now depends largely on the rapid, consistent, secure, 
and reliable movement and storage of data. As a result, without proper 
safeguards, we are potentially vulnerable to hackers, cyberterrorists, 
and other criminals who would use their computers for illegal intrusion 
into, and exploitation of, America's major information and 
communications networks. Over the past several years, the Department 
has begun to put these important safeguards into place.
    First, last year the Administration established a National 
Infrastructure Protection Center (NIPC) located in the Federal Bureau 
of Investigation. The NIPC's job is to detect, deter, analyze and 
respond to cyber threats, intrusions, and exploited vulnerabilities of 
our Nation's critical electronic infrastructures. This mission requires 
coordination with other agencies at every level of government. The 
Department has also developed the National Cybercrime Training 
Partnership (NCTP) to work in partnership with local, state, federal, 
and international law enforcement agencies in response to cybercrime. 
Cybercrimes, by their very nature; respect no national boundaries and 
may be perpetrated from virtually any spot on our planet. Strong 
liaison relationships with foreign police and security agencies are 
essential to identifying and apprehending cyber criminals.
            f. establishing a strong international presence
    One of the greatest challenges I have faced as Attorney General has 
been confronting the striking increase in international crime--and its 
impact here in the United States and on Americans and American 
interests at home and abroad.
    The impact of international crime is felt daily in our communities. 
International drug trade produces the horrible consequences of drug 
abuse--drug trade and trafficking related violence. International 
financial crime robs Americans of their savings, and exploits our banks 
and businesses. The growing problem of international trafficking in 
persons results in the most basic violations of human rights. 
Cybercrime threatens the American financial sectors and our critical 
infrastructures as well.
    Confronting transnational crime requires two significant and 
sustained efforts on our part. First, we need sufficient legal 
authority and resources to match the increase in scale and complexity 
of international criminality. Second, we need to build an effective 
infrastructure of cooperation with other countries; we need that 
infrastructure to collect evidence of trans-border crime and to bring 
international criminals to justice.
    Over the course of the past six years, we have worked to achieve 
these goals, and we have made a great deal of progress.
    We have strengthened our ``front line'' against international 
crime: our FBI, DEA and INS agents abroad. For example, in the last 
five years, the FBI has opened eight new offices--in Argentina, Israel, 
Russia, the Ukraine, Estonia, Poland, Saudi Arabia and South Africa; 
the Bureau now operates more than 38 overseas offices and is in the 
midst of opening four more. Last year, these offices handled 20,000 
investigative leads from our FBI offices at home. DEA, too, is 
augmenting its network overseas, with further expansion into the Newly 
Independent States of the former Soviet Union, Latin America, and Asia. 
We now have prosecutors stationed in Rome, Mexico and Colombia, and in 
Brussels to cover our increasing anti-crime work with the Europeans.
    Our network of law enforcement treaties has been vastly expanded 
and modernized. Just last year, the Senate Foreign Relations Committee 
approved a record 38 new extradition and mutual legal assistance 
treaties. As a result, we have doubled the extradition and foreign 
evidence cases handled by our office of International Affairs.
    We are making real inroads into what had been the greatest problem 
in bringing international fugitives to justice: other countries' 
refusal to extradite their own citizens. In every possible 
international forum, I put this issue on the top of my agenda. And we 
are seeing results: the first extraditions of Mexicans from Mexico; new 
treaties in Latin America--with Bolivia, Paraguay and Argentina--that 
remove centuries-old bars to extradition of nationals; and promising 
changes in the laws of countries such as the Dominican Republic and 
Colombia.
               g. promoting integrity in law enforcement
    Across the country, there are nearly 700,000 Law enforcement 
officers, and the overwhelming majority are hard-working public 
servants who do a dangerous job justly, fairly, with excellence and 
with honor. They put their lives on the line every day in the pursuit 
of justice and public safety.
    I support and salute these dedicated officers. We owe them a great 
debt of gratitude. But we as a society cannot tolerate officers who 
cross the line and abuse their position by mistreating law-abiding 
citizens or who bring their own racial bias to the job of policing.
    Even isolated cases of excessive force or bias can cause citizens 
to lose faith in their law enforcement officers, and undermine the 
trust that is so essential to effective policing. For too many people, 
especially in minority communities, the trust that is so essential to 
effective policing does not exist because residents believe that police 
have used excessive force, that law enforcement is biased, 
disrespectful, and unfair.
    To restore this trust between communities and law enforcement, 
police chiefs and rank and file officers agree that we must take 
decisive action against the few officers who violate their oaths and 
use excessive force or harass individuals. Most cases of excessive use 
of force by police officers are prosecuted by state and local 
authorities. However, the Department has important jurisdiction in this 
area and during the past five years we have prosecuted over 300 
officers for excessive force and other misconduct, and obtained the 
convictions of more than 200. Recently, we completed our investigation 
of the New Jersey State Police and determined that state police 
officers are engaged in a pattern or practice of discriminatory traffic 
enforcement. We look forward to working with the State of New Jersey on 
a settlement that will ensure that New Jersey becomes a model for 
guarding against discriminatory law enforcement.

 II. Enforcing Federal Laws and Representing the Federal Government in 
                          Judicial Proceedings

    Central to the mission of the Department of Justice is our work to 
protect civil rights, the environment, competitive fair market 
practices, the integrity of America's immigration laws, the fair 
enforcement of our tax laws, and our efforts to effectively represent 
the interests of the federal government in litigation.
                  a. enforcement of civil rights laws
    The Department of Justice is making significant progress in the 
enforcement of civil rights. I would like to focus today on three areas 
of particular activity by the Civil Rights Division.
    First, is the work that the Civil Rights Division is doing to 
enforce the promise of equal opportunity for Americans with 
disabilities, under the Americans with Disabilities Act. The Department 
has successfully resolved a number of cases involving discrimination in 
public accommodations and access to services for persons with 
disabilities. For example, Wendy's has agreed to modify queue lines in 
nearly 1,700 restaurants, and Bass Hotels, the owner of Holiday Inn, 
has agreed to modify their hotel facilities to make them more 
accessible to people with disabilities. Connecticut's private hospitals 
have agreed to provide sign-language interpreters to patients who are 
deaf.
    Second, the Civil Rights Division has sought to ensure that every 
American who has the means to own a home can do so without being 
discriminated against in the lending process. The Division has brought 
a record 13 lending discrimination suits, which have resulted in 
changes to make sure that lending practices are fair to all Americans.
    Third, the Department is developing new strategies to fight hate 
crime, a problem we believe is widespread and under-reported. In 
particular, we have established a hate crimes task force in each of the 
U.S. Attorneys' offices around the country which bring together state 
and local law enforcement and community leaders to coordinate our 
response to hate crimes.
    From 1993 through 1998, the Department of Justice brought 32 
federal hate crimes prosecutions under 18 U.S.C. Sec. 245. This law 
allows the federal government to prosecute a hate crime case where a 
victim was engaging in a federally protected activity. For example, in 
South Carolina, a team of federal, state, and local law enforcement 
agencies prosecuted five members of the local Ku Klux Klan for a series 
of hate crimes including two church arsons and the assault, with intent 
to kill, of an African American man with a mental disability. These 
five Klansmen were convicted of both state and federal offenses and 
have been- sentenced to serve lengthy terms in prison.
    The Department is committed to taking a firm stand against hate 
crimes, and supports legislation to strengthen federal hate crimes 
laws.
    Acting Assistant Attorney General Bill Lann Lee is leading the 
federal civil rights enforcement effort with expertise and dedication. 
I urge you to move quickly to approve Mr. Lee's nomination.
                     b. protecting our environment
    The Department's Environment and Natural Resources Division (ENRD) 
has a strong record of enforcement of our environmental laws. Overall, 
between 1993 and 1998, ENRD brought more than 350 civil Clean Air Act 
cases and 240 civil Clean Water Act cases, imposing more than $286 
million in penalties. Among its recent successes are two settlements 
with a major mining company, in cases brought for violations of the 
clean water and hazardous waste laws. The settlements include an $11.8 
million penalty, and will result in cleaning up of the contaminated 
areas as well as a major upgrade of the company's environmental 
management systems.
    The Division has also brought successful criminal prosecutions 
involving the illegal importation of chlorofluorocarbons, pollution of 
oceans and inland waterways, discharges of massive quantities of 
hazardous substances into the environment, and pesticide contamination; 
and has launched an enforcement program targeting the $5 billion 
illegal wildlife smuggling industry.
    The Division's litigation has also resulted in the protection of 
public lands and Indian rights and claims. In all of its work, the 
Division has integrated alternative dispute resolution and carefully 
selects cases to use the Department's resources cost effectively and 
appropriately.
     c. protecting american consumers from unfair market practices
    The Antitrust Division works to ensure that American consumers 
benefit from a competitive and fair marketplace. Strong competition 
benefits American consumers, who are assured of high quality goods at 
reasonable prices, and helps American industry in the worldwide economy 
by promoting healthy rivalry and encouraging efficiency and innovation.
    Because of the globalization of our economy and the growth of 
technology, the Antitrust Division faces increasingly large and complex 
cases each year.
    Through its enhanced enforcement efforts, the Division has 
recovered a record $470 million in criminal fines in the past two years 
alone. On the civil side, the Division has challenged Microsoft's hold 
on the computer software industry and the control that Visa and 
MasterCard have on the credit card industry. The Department has also 
conducted a number of antitrust investigations of the agriculture 
industry in recent years, leading to a number of enforcement actions, 
including the criminal prosecution of Archer Daniels Midland and others 
for price fixing, and the required divestiture, as part of the 
Monsanto/DeKalb Genetics merger, of cutting-edge genetic transformation 
technology.
    Second, the Antitrust Division has increased its work in the review 
of mergers. Mergers have been occurring at a record pace--with merger 
filings increasing 10 percent in fiscal year 1996, 20 percent more in 
fiscal year 1997, and another 30 percent in fiscal year 1998. The 
Antitrust Division recently successfully challenged the largest merger 
in American history: the proposed merger of Lockheed-Martin with 
Northrop Grumman.
         d. representing the united states in civil proceedings
    From 1993 through the beginning of 1999, the Civil Division secured 
a record $5.5 billion in judgments and settlements. The majority of 
these awards are the result of the crackdown on fraud committed against 
taxpayers--specifically, the vigorous pursuit of health care fraud--and 
successes in suits involving bankruptcy fraud, loan defaults, and other 
commercial transactions.
    In addition, in December of 1998, I concluded that there were 
viable bases for the Department to pursue recovery of the federal 
government's tobacco-related health care costs through litigation. The 
Department has now formed a tobacco litigation team, housed in the 
Civil Division, to pursue recovery of these costs. I hope that you will 
support the Department's request for $20 million in fiscal year 2000 to 
fund the tobacco litigation.
e. controlling illegal immigration and revitalizing the immigration and 
                         naturalization service
    Six years ago, the Immigration and Naturalization Service (INS) 
lacked the resources, the personnel or the equipment to control illegal 
immigration or administer our nation's immigration laws. The agency's 
filing systems were inadequate. There were holes in our fences along 
our border. Roads along the border were impassible for the Border 
Patrol. Computers were antiquated. And there was no effective strategy 
for controlling illegal immigration.
    In the past six years, through the efforts of the Immigration and 
Naturalization Service (INS) and the backing of this Committee, the 
Department has put in place a comprehensive strategy to control illegal 
immigration and improve the operation of the Immigration and 
Naturalization Service.
    The first priority was to reverse years of neglect along the 
Southwest border. With your support, the Department has nearly doubled 
the size of the Border Patrol to almost 9,000 agents today. Similarly, 
we have added over 1,900 new Immigration Inspectors and deployed new 
state of the art technologies to speed up the process of legal entry 
and control illegal immigration at our Ports of Entry. We launched 
Operation Gatekeeper in San Diego, Operation Hold the Line in El Paso 
Texas, and Operation Rio Grande in South Texas. We will continue to 
send reinforcements to Arizona and other sectors that are experiencing 
great pressure as we close the traditional corridors for illegal 
immigration. I would like to note that with the greatly expanded 
workforce, the proposed budget for fiscal year 2000 does not request 
funds to hire additional Border Patrol agents next year. We do, 
however, request significant funding for facilities and for force-
multiplying technologies to support the Border Patrol.
    Second, we are deporting illegal immigrants faster and in greater 
numbers than ever before. From fiscal year 1993 to fiscal year 1998, 
INS increased the number of annual removals from 42,471 to over 
171,000. The number of criminal aliens removed from the country reached 
56,100 last year, and is continuing at the rate of more than 1,000 per 
week, double the number removed in 1993. We have significantly 
increased detention space to support this effort. INS now detains about 
14,500 criminal aliens, quadruple the capacity of 1994. Last year, we 
were able to detain more than 150,000 aliens, 74 percent more than in 
1995.
    Third, INS has placed agents and officers overseas to target major 
smuggling operations.
    Fourth, INS has reformed the system for asylum processing to reduce 
fraud and better respond to those who are fleeing persecution.
    Fifth, the Department is continuing to reengineer the 
naturalization process to accommodate the millions of new applicants 
for citizenship. Overall, from fiscal year 1993 to fiscal year 1998, 
INS has received over 5.6 million new applications for citizenship and 
has completed nearly 4 million cases.
    Finally, we will shortly present to you a draft proposal to 
fundamentally restructure the INS by dividing its primary functions of 
enforcement and services into distinct chains of command. This effort 
will increase accountability, improve performance and strengthen our 
immigration system.
       f. promoting the fair enforcement of the federal tax laws
    The Tax Division works to ensure fairness in the tax system. Since 
fiscal year 1993, the Division has successfully blocked more than $2.4 
billion in improper tax refund claims, including more than $275 million 
in such claims in 1998. The Division also secured convictions in the 
largest motor fuel excise tax case to date, involving an attempt by 
organized crime figures to evade $140 million in taxes. The Tax 
Division has also vigorously prosecuted large-scale electronic-filing 
fraud schemes and helped to identify systemic weaknesses that led the 
IRS to institute better fraud detection and prevention controls.

    III. Managing a Growing Department and Preparing for the Future

    The Department has experienced tremendous growth during the past 
six years, moving from an annual budget of $11 billion and over 83,000 
employees in fiscal year 1993 to more than $20 billion and 122,000 
employees in fiscal year 1999. Through this important investment in 
human and information resources, the Department has become better 
equipped to fulfill its criminal and civil law enforcement 
responsibilities.
                    a. managing our human resources
    The Department has hired more than 35,000 additional employees over 
the past six years. This includes an 18 percent increase in the size of 
the FBI, a 33 percent increase in DEA, and a 67 percent increase in the 
INS workforce. The Department has faced a tremendous management 
challenge recruiting, screening, hiring, training and integrating these 
35,000 new employees into our operations.
    During this past decade, the federal prison population has also 
grown dramatically up 142 percent. To manage this unprecedented growth, 
the number of personnel in the Federal Bureau of Prisons has increased 
by one-third over the past six years. The Department continues to 
implement an aggressive long-term prison expansion program, requesting 
$738 million in new initiatives for detention and incarceration 
programs. We know that we are going to face tremendous challenges in 
the future as we develop strategies to respond to the needs of our 
increasing and aging federal prison population.
                   b. managing information resources
    Over the past six years, with your support, the Department has been 
able to invest in new technology to improve efficiency, aid law 
enforcement and keep pace with rapid changes in crime. We plan to 
continue this effort, as well as our efforts to improve the security of 
our computer and technology systems against external threats and 
internal weaknesses.
    At the same time, we are working to assure that critical systems 
within the Department of Justice operate correctly on January 1, 2000. 
In 1999, Congress provided the Department with more than $84 million in 
one-time funding to ensure year Y2K compliance. We estimate that the 
total cost of Y2K compliance and implementation will be $109 million. 
More than 90 percent of the Department's critical information systems 
are now compliant, and we project that we will achieve 100 percent 
compliance of these systems by October 1999.

                             IV. Conclusion

    I appreciate the oversight function performed by this Committee as 
well as the Committee's understanding of the Department's policy with 
regard to providing information about pending cases. I know that this 
policy often results in the Department not being able to provide the 
Committee as much information as it would like. But, as you know, this 
policy ultimately serves to protect the independence of the Department 
many dedicated career attorneys.
    These have been a challenging six years for all of us. I am pleased 
that we have made such great progress on crime and in so many areas. 
But we have more work to do and more challenges to face. I look forward 
to working with every Member of this Committee as we seek solutions and 
work to craft policies and programs that are tailored to the needs of 
our communities and our country.
    Thank you.

    [Whereupon, at 12:24 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T4325.001
    
    [GRAPHIC] [TIFF OMITTED] T4325.002
    
    [GRAPHIC] [TIFF OMITTED] T4325.003
    
    [GRAPHIC] [TIFF OMITTED] T4325.004
    
    [GRAPHIC] [TIFF OMITTED] T4325.005
    
    [GRAPHIC] [TIFF OMITTED] T4325.006
    
    [GRAPHIC] [TIFF OMITTED] T4325.007
    
    [GRAPHIC] [TIFF OMITTED] T4325.008
    
    [GRAPHIC] [TIFF OMITTED] T4325.009
    
    [GRAPHIC] [TIFF OMITTED] T4325.010
    
    [GRAPHIC] [TIFF OMITTED] T4325.011
    
    [GRAPHIC] [TIFF OMITTED] T4325.012
    
    [GRAPHIC] [TIFF OMITTED] T4325.013
    
    [GRAPHIC] [TIFF OMITTED] T4325.014
    
    [GRAPHIC] [TIFF OMITTED] T4325.015
    
    [GRAPHIC] [TIFF OMITTED] T4325.016
    
    [GRAPHIC] [TIFF OMITTED] T4325.017
    
    [GRAPHIC] [TIFF OMITTED] T4325.018
    
    [GRAPHIC] [TIFF OMITTED] T4325.019
    
    [GRAPHIC] [TIFF OMITTED] T4325.020
    
    [GRAPHIC] [TIFF OMITTED] T4325.021
    
    [GRAPHIC] [TIFF OMITTED] T4325.022
    
    [GRAPHIC] [TIFF OMITTED] T4325.023
    
    [GRAPHIC] [TIFF OMITTED] T4325.024
    
    [GRAPHIC] [TIFF OMITTED] T4325.025
    
    [GRAPHIC] [TIFF OMITTED] T4325.026
    
    [GRAPHIC] [TIFF OMITTED] T4325.027
    
    [GRAPHIC] [TIFF OMITTED] T4325.028
    
    [GRAPHIC] [TIFF OMITTED] T4325.029
    
    [GRAPHIC] [TIFF OMITTED] T4325.030
    
    [GRAPHIC] [TIFF OMITTED] T4325.031
    
    [GRAPHIC] [TIFF OMITTED] T4325.032
    
    [GRAPHIC] [TIFF OMITTED] T4325.033
    
    [GRAPHIC] [TIFF OMITTED] T4325.034
    
    [GRAPHIC] [TIFF OMITTED] T4325.035
    
    [GRAPHIC] [TIFF OMITTED] T4325.036
    
    [GRAPHIC] [TIFF OMITTED] T4325.037
    
    [GRAPHIC] [TIFF OMITTED] T4325.038
    
    [GRAPHIC] [TIFF OMITTED] T4325.039
    
    [GRAPHIC] [TIFF OMITTED] T4325.040
    
    [GRAPHIC] [TIFF OMITTED] T4325.041
    
    [GRAPHIC] [TIFF OMITTED] T4325.042
    
    [GRAPHIC] [TIFF OMITTED] T4325.043
    
    [GRAPHIC] [TIFF OMITTED] T4325.044
    
    [GRAPHIC] [TIFF OMITTED] T4325.045
    
    [GRAPHIC] [TIFF OMITTED] T4325.046
    
    [GRAPHIC] [TIFF OMITTED] T4325.047
    
    [GRAPHIC] [TIFF OMITTED] T4325.048
    
    [GRAPHIC] [TIFF OMITTED] T4325.049
    
    [GRAPHIC] [TIFF OMITTED] T4325.050
    
    [GRAPHIC] [TIFF OMITTED] T4325.051
    
    [GRAPHIC] [TIFF OMITTED] T4325.052
    
    [GRAPHIC] [TIFF OMITTED] T4325.053
    
    [GRAPHIC] [TIFF OMITTED] T4325.054
    
    [GRAPHIC] [TIFF OMITTED] T4325.055
    
    [GRAPHIC] [TIFF OMITTED] T4325.056
    
    [GRAPHIC] [TIFF OMITTED] T4325.057
    
    [GRAPHIC] [TIFF OMITTED] T4325.058
    
    [GRAPHIC] [TIFF OMITTED] T4325.059
    
    [GRAPHIC] [TIFF OMITTED] T4325.060
    
    [GRAPHIC] [TIFF OMITTED] T4325.061
    
    [GRAPHIC] [TIFF OMITTED] T4325.062
    
    [GRAPHIC] [TIFF OMITTED] T4325.063
    
    [GRAPHIC] [TIFF OMITTED] T4325.064
    
    [GRAPHIC] [TIFF OMITTED] T4325.065
    
    [GRAPHIC] [TIFF OMITTED] T4325.066
    
    [GRAPHIC] [TIFF OMITTED] T4325.067
    
    [GRAPHIC] [TIFF OMITTED] T4325.068
    
    [GRAPHIC] [TIFF OMITTED] T4325.069
    
    [GRAPHIC] [TIFF OMITTED] T4325.070
    
    [GRAPHIC] [TIFF OMITTED] T4325.071
    
    [GRAPHIC] [TIFF OMITTED] T4325.072
    
    [GRAPHIC] [TIFF OMITTED] T4325.073
    
    [GRAPHIC] [TIFF OMITTED] T4325.074
    
    [GRAPHIC] [TIFF OMITTED] T4325.075
    
    [GRAPHIC] [TIFF OMITTED] T4325.076
    
    [GRAPHIC] [TIFF OMITTED] T4325.077
    
    [GRAPHIC] [TIFF OMITTED] T4325.078
    
    [GRAPHIC] [TIFF OMITTED] T4325.079
    
    [GRAPHIC] [TIFF OMITTED] T4325.080
    
    [GRAPHIC] [TIFF OMITTED] T4325.081
    
    [GRAPHIC] [TIFF OMITTED] T4325.082
    
    [GRAPHIC] [TIFF OMITTED] T4325.083
    
    [GRAPHIC] [TIFF OMITTED] T4325.084
    
    [GRAPHIC] [TIFF OMITTED] T4325.085
    
    [GRAPHIC] [TIFF OMITTED] T4325.086
    
    [GRAPHIC] [TIFF OMITTED] T4325.087
    
    [GRAPHIC] [TIFF OMITTED] T4325.088
    
    [GRAPHIC] [TIFF OMITTED] T4325.089
    
    [GRAPHIC] [TIFF OMITTED] T4325.090
    
    [GRAPHIC] [TIFF OMITTED] T4325.091
    
    [GRAPHIC] [TIFF OMITTED] T4325.092
    
    [GRAPHIC] [TIFF OMITTED] T4325.093
    
    [GRAPHIC] [TIFF OMITTED] T4325.094
    
    [GRAPHIC] [TIFF OMITTED] T4325.095
    

</pre></body></html>
